<html>
<title> - FIVE YEARS AFTER DEEPWATER HORIZON: IMPROVEMENTS AND CHALLENGES IN PREVENTION AND RESPONSE</title>
<body><pre>[Senate Hearing 114-116]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-116

                  FIVE YEARS AFTER DEEPWATER HORIZON:
                      IMPROVEMENTS AND CHALLENGES
                       IN PREVENTION AND RESPONSE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-534 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 29, 2015...................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Ayotte......................................     2
Statement of Senator Nelson......................................    30
Statement of Senator Peters......................................    35
Statement of Senator Klobuchar...................................    37
Statement of Senator Markey......................................    39
Statement of Senator Sullivan....................................    42
Statement of Senator Rubio.......................................    45
Statement of Senator Blumenthal..................................    45

                               Witnesses

Charles (Charlie) Williams II, Executive Director, Center for 
  Offshore Safety................................................     2
    Prepared statement...........................................     4
Nancy E. Kinner, Ph.D., Co-Director, Coastal Response Research 
  Center; Director, Center for Spills in the Environment; 
  Professor, Civil and Environmental Engineering, University of 
  New Hampshire..................................................     7
    Prepared statement...........................................     9
Christopher M. Reddy, Ph.D., Senior Scientist, Department of 
  Marine Chemistry and Geochemistry, Woods Hole Oceanographic 
  Institution (WHOI).............................................    12
    Prepared statement...........................................    14
Samantha B. Joye, Ph.D., Athletic Association Distinguished 
  Professor of Arts and Sciences, Professor of Marine Sciences, 
  University of Georgia..........................................    18
    Prepared statement...........................................    20

                                Appendix

Response to written question submitted by Hon. Marco Rubio to:
    Charles (Charlie) Williams II................................    55
    Christopher M. Reddy, Ph.D...................................    55

 
                  FIVE YEARS AFTER DEEPWATER HORIZON:
                      IMPROVEMENTS AND CHALLENGES
                       IN PREVENTION AND RESPONSE

                              ----------                              


                       WEDNESDAY, APRIL 29, 2015

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:39 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Blunt, Rubio, 
Ayotte, Fischer, Sullivan, Gardner; Nelson, Klobuchar, 
Blumenthal, Markey, Booker, and Peters.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. This hearing will come to order. If you all 
would come up, all the panelists, we will introduce you in just 
a minute. Thank you, and welcome, it is great to have you here.
    Domestic energy production, whether it is in the form of 
crude oil in the Gulf of Mexico or North Dakota, hydropower in 
the Pacific Northwest or wind energy in South Dakota, is an 
important way of reducing America's dependence on foreign oil 
while creating jobs and decreasing energy costs.
    This energy production, as vital as it is, must be 
accomplished in the safest way possible. A major failure in 
safety occurred on April 20, 2010 when 11 crewmen lost their 
lives in an explosion on the Deepwater Horizon drilling rig. 
The resulting oil spill was the largest ever recorded in U.S. 
waters with widespread environmental and economic damages 
across the Gulf.
    In the past 5 years, we have attempted to learn from this 
tragedy and to find solutions that will improve the speed of 
clean up efforts, minimize the potential for future spills, and 
save lives.
    In 2012, Congress passed the bipartisan RESTORE Act, which 
allocated funds to the Gulf states for restoration activities. 
In addition, Federal, state, industry, and academic scientists 
and engineers have been working together in unprecedented ways 
to find solutions to prevent and minimize oil spills in the 
future.
    Today we are going to be hearing from some of these 
scientists. I look forward to learning about the progress they 
have made.
    Senator Nelson will be here momentarily, I think. Until he 
arrives, we will get underway, and we will introduce our 
witnesses.
    One of our panelists today is from the state of New 
Hampshire, and I will turn to our colleague from New Hampshire, 
Senator Ayotte, and allow her to introduce that witness.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. I want to thank the Chairman. I am really 
honored today to have with us Dr. Nancy Kinner. Dr. Kinner is a 
Professor of Civil and Environmental Engineering at the 
University of New Hampshire. She also is Co-Director of the 
Coastal Response Research Center and Director of the Center for 
Spills in the Environment at the University of New Hampshire.
    I am very proud of the work that the Coastal Response 
Research Center and the Center for Spills is doing, not only on 
important scientific research on how to prevent spills, how to 
best address them. I just recently visited the Center. I think 
you will find the testimony today about the work being done at 
the University of New Hampshire as led by Dr. Kinner very 
important on how we work together to not only prevent future 
spills but also make sure we have the proper environmental 
response when we hope they do not occur, they do occur.
    I am honored to have Dr. Kinner here, and so glad UNH is 
such an important part of this discussion.
    The Chairman. Thank you, Senator Ayotte. Dr. Kinner, it is 
nice to have you here. We look forward to hearing about your 
research.
    We also have with us Mr. Charlie Williams. He is the 
Executive Director for the Center for Offshore Safety. He will 
be discussing improvements in safety and prevention in the 
offshore oil and gas industry since the Deepwater Horizon oil 
spill.
    Dr. Christopher Reddy is the Director of the Coastal Ocean 
Institute at the Woods Hole Oceanographic Institution. Dr. 
Reddy is one of the top cited and published scientists studying 
oil spill effects for mediation methods and petroleum 
microbiology.
    Dr. Samantha Joye is a Professor of Marine Science at the 
University of Georgia. I look forward to learning about her 
multidisciplinary work in chemistry, microbiology, and geology.
    It is a great panel. We are delighted to have you all here 
this morning. We will start on my left and your right with Mr. 
Williams. Please proceed with your opening remarks, and if you 
could confine them to as close to five minutes as possible, we 
will do our best to get our questions in. I think a number of 
members have to depart for an event that we have coming up a 
little later this morning.
    Mr. Williams, please proceed.

STATEMENT OF CHARLES (CHARLIE) WILLIAMS II, EXECUTIVE DIRECTOR, 
                   CENTER FOR OFFSHORE SAFETY

    Mr. Williams. Thank you, Mr. Chairman. Thanks to members of 
the Committee for this opportunity.
    America's oil and natural gas industry is safer than ever 
before. Safety is a core value to the industry and an 
imperative. Our goal is and always will be zero spills and zero 
accidents.
    What has changed? A renewed and sustained commitment to 
collaborating, learning, and delivering together through 
committing the resources needed to do this. How this has come 
is with new industry standards, a new sub-sea containment 
system, increased clean up capability, and the Center for 
Offshore Safety.
    The Center for Offshore Safety was created based on an 
industry study team recommendation but also on the Presidential 
Commission recommendation that there be a for the industry and 
by the industry organization totally focused on safety.
    We are that organization and I am proud to lead the Center. 
We work every day, all day, on safety, using many teams of 
industry volunteers dedicated to our mission and the industry 
mission, which is one and the same.
    We are also an important stakeholder in enabling all the 
work of the BSEE regulation that all the operators have a 
safety and environmental management system. An example of this 
is recommended Practice 75. The regulation and what we work on 
is not safety as most people know it. It is not about personal 
and personnel safety, such as hardhats and safety shoes, even 
though this is critically important. The industry has actually 
done a great job on personnel safety.
    What we work on is safety and environmental management 
systems. What is SEMS and why is it so critical? SEMS is about 
having good procedures and standards, skills, a knowledgeable 
workforce, and good project design and execution processes 
including such things as hazard identification, planning, and 
very importantly, management of change.
    SEMS is foundational to safety culture and must have a 
strong and clear leadership, and this strong and clear 
leadership develops SEMS into a sustained safety culture.
    SEMS is a key barrier to major incidents, and in that way 
it is different from staff safety. How can this be? It is 
because SEMS is a sustainable and continuous learning process 
that manages safety with the same principles of planning and 
organization, implementation, and controls that you would 
expect from any other business function.
    It fully embeds and integrates safety into the business. 
All planning and management of change are done in support of 
maintaining safety.
    What else is different? SEMS is a performance-based system 
and not a rules-based system. People have to develop the system 
to best fit their business within the elements that are 
defined, and then it is measured through auditing that the 
performance of SEMS is effective and the performance is good.
    The Center for Offshore Safety is making a difference in 
many ways. First, we are the place where the industry comes 
together and is totally focused on SEMS and how to make SEMS 
more effective. As a member, you commit yourself to high 
standards of safety.
    An example of this is we committed to doing third-party 
audits before it was part of the regulation. We have also 
ensured good SEMS' audits through audit tools like audit 
procedures, auditor training, actually auditing in the 
accreditation of auditors. That is the primary way SEMS' audits 
and performance is assessed. This feedback is also used for 
learning and improvement purposes.
    COS has established other measures that are continuous and 
forward looking and give us much more information about SEMS 
and how to improve its effectiveness as we go forward.
    These tools include safety performance indicators and 
learning from incidents which help us learn about the safety 
and cultural elements of incidents and how those incidents will 
be prevented in the future, and it also has forward-looking 
measures like managing maintenance on your critical systems 
that helps you look and see that your safety and environmental 
management systems are effective going forward, and give you 
early indications.
    A good example of what we do is we collect all this 
information and develop an annual report, and then develop a 
plan to have good standards and have good practices to help 
improve SEMS when we find places that need improvement.
    A good example of what is our leadership site visit 
guideline, which helps leaders improve safety and safety 
culture by what they say when they are on the work site.
    In closing, I want to leave you with two concepts that are 
key to SEMS. The first is barrier management. A key part of 
SEMS is identifying hazards and establishing barriers, 
maintaining those barriers, and ensuring those barriers stay in 
place to prevent major incidents, and using barriers to measure 
the effectiveness of the management systems.
    The last one is skills and knowledge. We have to go beyond 
classroom training, and we have to have people that are 
knowledgeable, have experiences in all kinds of scenario's and 
are able to think about and respond to those.
    Every incident is one too many and a powerful incentive for 
COS to redouble our efforts to learn and improve. Our thoughts 
will always be with those that lost their lives and their 
families. The industry is doing better, even the companies that 
had good SEMS are doing better through the Center for Offshore 
Safety in being able to share and work together.
    Our strong culture of safety continues to grow along with 
advances in technology and standards. As long as there is room 
for improvement, COS' work is never complete. This is my 
livelihood and passion, and I will never stop improving safety 
management.
    Thank you.
    [The prepared statement of Mr. Williams follows:]

    Prepared Statement of Charles (Charlie) Williams II, Executive 
                  Director, Center for Offshore Safety
    America's offshore oil and natural gas industry is safer than 
before, but our goal will always be zero accidents and zero spills.
    A significant enhancement in safety and environmental protection in 
the oil and natural gas industry post-Macondo was the creation and on-
going work of the Center for Offshore Safety (COS). COS was created by 
the industry for the industry, and is devoted entirely to continually 
assessing, learning about, and improving the safety and environmental 
management systems (SEMS) implemented by operators in the OCS.
    SEMS has the following benefits:

  <bullet> Shifts execution and oversight strategy from a prescriptive 
        rule-based approach to one that is proactive and performance-
        based

  <bullet> Manages safety with the same principles of planning, 
        organization, implementation, and controls that we expect from 
        other business functions

  <bullet> Drives both Process and Personal accountability up and down 
        the organizational structure

    SEMS requires mechanisms that:

        1--Specify what is needed for safe operation

        2--Check to see that these specifications are being followed

        3--Build competency by developing individual knowledge and 
        skill

    COS is entirely focused on Safety and Environmental Management 
Systems (SEMS) and how their effectiveness can be continually evaluated 
and enhanced.
    SEMS is intended as an active-learning safety and environmental 
management system that establishes and manages barriers, takes a 
systematic approach to all parts of offshore safety, has active 
monitoring via safety performance and other indicators, uses 
independent verification via third-party auditors, and focuses 
continually on operationalizing and enhancing safety and environmental 
management. Most significantly, SEMS focuses on the importance of 
leadership and the interaction of management with staff to deliver a 
positive safety culture.
    The COS mission is promoting the highest level of safety for 
offshore operations through effective leadership, communication, 
teamwork, use of disciplined management systems and independent third-
party auditing and certification. Sharing data and lessons learned 
throughout the industry is an essential part of the work COS does to 
continually enhance safety.
    Through the COS, industry members are committed to improving SEMS 
performance by subscribing to the following principles:

  <bullet> Industry leaders demonstrate a visible commitment to safety

  <bullet> Operators, contractors, and suppliers work together to 
        create a culture of safety

  <bullet> Decision making at all levels will not compromise safety. 
        Safety processes, equipment, training and technology undergo 
        continual examination and improvement

  <bullet> Members share learnings and apply industry standards, good 
        practices and promote continual improvement

    COS broadly represents the oil and natural gas business on the U.S. 
Outer Continental Shelf with members from all aspects of the upstream 
offshore oil and natural gas industry including operators, drilling 
contractors, equipment manufacturers and service contractors. The COS 
has a full-time staff that works in conjunction with industry task 
groups to address specific SEMS issues. In addition, COS has a 
governing board made up of senior management of the industry member 
companies.
    The COS is responsible for:

  <bullet> Assuring that third-party Audit Service Providers and their 
        auditors meet the goals, objectives and requirements for 
        conducting SEMS audits

  <bullet> Compiling and analyzing SEMS data and other safety metrics 
        to find areas for enhancement

  <bullet> Creating Good Practices to close gaps found through the 
        safety data analysis

  <bullet> Coordinating COS-sponsored functions designed to facilitate 
        sharing and learning processes regarding SEMS and good 
        practices

  <bullet> Identifying and promoting opportunities for industry to 
        continually improve SEMS and safety

  <bullet> Developing outreach programs to facilitate communicating 
        with government and external stakeholders regarding SEMS

    COS has developed processes and documents in the following areas:

  <bullet> COS SEMS Toolkit--SEMS Audit Protocols, Operator-Contractor 
        interface documents, staff Knowledge & Skills worksheets, and 
        other products for SEMS.

  <bullet> SEMS Audit Service Provider (ASP) Documents, protocols, and 
        guides

  <bullet> COS Auditor Qualification and Training, SEMS Certification 
        for Operators and Contractors, and ASP Accreditation 
        Documents--Suite of documents that outline the qualification 
        and training requirements for third-party auditors performing 
        COS SEMS audits, COS SEMS certification requirements, 
        accreditation requirements for ASP performing third-party 
        audits and COS Standard Audit Report worksheets and template.

  <bullet> Skills and Knowledge Management System Guideline (SKMS)--
        Tools and techniques to provide industry with a common process 
        for the verification and development of employee and contractor 
        skills and knowledge

  <bullet> Leadership Site Engagement--Good practice guidance for 
        senior managers and leaders to demonstrate visible safety and 
        environmental commitment during visits to offshore operating 
        sites, as well as enhancing accountability and safety culture

    COS is actively working in the following areas:

  <bullet> Audit Service Provider Accreditation--Develop an enhanced 
        set of COS-endorsed standards for accrediting Audit Service 
        Providers and their auditors to support the COS SEMS 
        certification program

  <bullet> SEMS Certification Program-Operator Certification--
        Certification of operator SEMS programs via accredited third-
        party audit.

  <bullet> SEMS Certification Program-Contractor Certification--third-
        party SEMS Certification of drilling contractors and offshore 
        service/supply companies in order to provide assurance to 
        operators and regulators that a system is in place which meets 
        applicable requirements and demonstrates contractor workers 
        have skills and knowledge to follow safe work practices.

  <bullet> Safety Performance Indicators (SPI) Program--Clearly defined 
        indicators to evaluate safety performance and aid in 
        identifying safety trends. This includes new leading indicators 
        of SEMS effectiveness.

  <bullet> Learning from Incidents (LFI) Program--A process and 
        methodology to identify, assess and communicate high value 
        learning incidents to promote cross-industry learning. This 
        includes identifying SEMS elements that were ineffective and 
        contributed to the incident and how the possibility of the 
        incident will be minimized in the future.

  <bullet> Information and Knowledge Management--An information and 
        knowledge management framework to gather, manage and share 
        information to enable the industry to continually improve SEMS 
        performance.

  <bullet> COS Safety Events--Plan, develop and coordinate annual COS 
        Safety Forum, Offshore Technology Conference Technical 
        Sessions, SEMS Audit Workshops, and other events to facilitate 
        sharing knowledge and promoting opportunities to continually 
        improve SEMS and safety.

    COS has recently published its first Annual Performance Report 
detailing the initial round of data and lessons learned from the Safety 
Performance Indicator Program, Learning from Incidents Program and SEMS 
audits described above. This report is available via the COS website.
    The oil and natural gas industry is committed to operating in a 
safe and responsible manner while minimizing our impact on the 
environment. Protecting the health and safety of our workers, our 
contractors and our neighbors is a moral imperative and core value of 
our industry.
    No incident is acceptable. Our industry takes every incident 
seriously. Continued vigilance is essential in helping to prevent 
future incidents.
    In the five years since the Macondo incident, the oil and natural 
gas industry has methodically examined every aspect of offshore safety 
measures and operations to identify potential improvements in safety 
management. COS was established by the industry to ensure that this 
continues and is effective, that there is a single group exclusively 
focused on SEMS, and that there is a group responsive to supporting a 
culture of safety.
    We worked with the U.S. Department of Interior, the Presidential 
Oil Spill Commission, other Government Organizations, and industry 
experts as we developed the mission, programs, and tools of COS. But 
COS did not start from scratch. Offshore exploration and production has 
long been focused on safety and delivering remarkably safe and 
successful technology and operations. The industry is committed to 
ensuring that SEMS is continually enhanced and that the COS 
organization is in place to focus on this and share industry knowledge 
of SEMS and safety.
    Despite industry's history of safety dedication and performance, it 
was understood that the balance between personnel safety and prevention 
of major incidents had to be enhanced and the focus on continual SEMS 
learning, as well as operationalizing those learnings, must be 
maintained. The oil and natural gas industry has dedicated the past 
five years to using the lessons learned from Macondo to enhance safety 
and operational practices.
    Our strong culture of safety continues to grow along with advances 
in technology and industry standards. So long as there is any room for 
improvement, our work at COS will never be complete. This is our 
livelihood, and our work is critical to America's new energy 
renaissance.
    Every incident is both one too many and a powerful incentive for 
COS and industry to improve SEMS, the learning process, skills and 
knowledge, operating procedures and standards, and effectiveness 
measures and audits. Our thoughts will always remain with the families 
of all those who lost their lives in this tragic accident. And the 
industry, and the industry through COS, stands ready to continue to 
work with government and regulators to improve safety.

    The Chairman. Thank you, Mr. Williams. Dr. Kinner?

       STATEMENT OF NANCY E. KINNER, Ph.D., CO-DIRECTOR,

          COASTAL RESPONSE RESEARCH CENTER; DIRECTOR,

        CENTER FOR SPILLS IN THE ENVIRONMENT; PROFESSOR,

              CIVIL AND ENVIRONMENTAL ENGINEERING,

                  UNIVERSITY OF NEW HAMPSHIRE

    Dr. Kinner. Chairman Thune, Ranking Member Nelson, and 
distinguished members of the Committee, thank you for giving me 
the opportunity to appear before you today.
    I am a professor of civil and environmental engineering at 
the University of New Hampshire, and as Senator Ayotte 
mentioned, I am also the UNH Co-Director of the Coastal 
Response Research Center, a NOAA-funded partnership, and 
Director of the Center for Spills in the Environment, a center 
that expands the scope of interaction to other governmental 
agencies, the private sector, and NGOs.
    The mission of the centers is to conduct and oversee 
response on spill response, assessment, and restoration, and 
make sure that research is transformed into practice. In 
addition, we serve as a hub for spill research and facilitate 
collaboration among all stakeholders in the response community, 
including those affiliated with industry, government, academia, 
and NGOs.
    The centers were created in 2004 because many research and 
development needs existed with respect to spills. It may seem 
unusual that a spill response center is located in New 
Hampshire, but that makes sense when the goal is to have an 
independent and highly credible voice that can speak freely 
during a crisis and mediate difficult discussions among diverse 
stakeholders.
    For example, we were asked to facilitate a discussion 
during the Deepwater Horizon spill among 50 renown scientists 
to evaluate whether dispersants should continue to be used.
    After examining the available data and the science 
regarding the potential impact of dispersant use on the 
environment, the conclusion of those scientists was that use of 
dispersants and the effects of dispersing the oil were 
generally less harmful than allowing the oil to migrate into 
sensitive wetlands and near shore habitats, and therefore, 
dispersant use should continue at that time.
    When oil is spilled, there is no single silver bullet 
response technology that provides an universal solution. As I 
like to tell my students, oil spills are bad and they cause 
very bad things to happen. The goal of response is to minimize 
as much as possible the damage. Hence, the challenge is to 
translate the results of the oil spill research into better 
response.
    In the wake of the Deepwater Horizon, there has been a 
large influx of money into research, and there are many oil 
spill related papers being published each month as a direct 
result of this funding.
    The question is how much of this research will result in 
improvements in oil spill response. Unfortunately, the answer 
might be not very much. Why not?
    First, the research that needs to be done to improve 
response is often not conducted because researchers rarely 
interact with responders. They do not go to the same parties. 
Second, it is difficult for scientists to simulate the real 
environment.
    For example, to answer questions as to whether chemical 
dispersants should be added to a blowout, scientists need to 
simulate the mixing that occurs at a deep wellhead where many, 
many gallons of oil and gas are billowing out rapidly at very 
high pressure. That is to say the least a very challenging 
environment to simulate in the laboratory, small test tank, or 
with mathematical modeling.
    Third, scientific journals rarely publish papers where 
experiments do not show any measurable changes. Yet, research 
that shows no effects can be very useful.
    For example, if we added oil to very cold seawater that 
contained naturally occurring microorganisms and that oil 
concentration did not change over time, the results would 
probably be difficult to publish. Yet, responders fighting a 
spill in the Arctic Ocean would want to know that the oil might 
not be degraded as rapidly as in warmer water.
    How can we address these challenges? We can bring 
responders and scientists together in a partnership to develop 
research needs and design and conduct experiments to address 
those needs.
    Even if we started that process today, the results of the 
research would not be available for several years. In the 
interim, we can sort through the large amount of research 
published to determine if and how it can improve response.
    Here is one example of how our centers in partnership with 
NOAA and EPA are doing this. We have convened 70 scientists, 
two of whom are sitting to my left, to review the literature 
and determine what is known and what is uncertain about the 
state of the science of dispersants and dispersed oil in spill 
response, especially as it applies to the Arctic.
    My job is to facilitate those discussions, which as you 
might imagine can be quite interesting. What never ceases to 
amaze me is how a diverse group of researchers and response 
scientists can come to consensus when the focus is on the 
details of the science. I see this approach as a path forward 
on many thorny issues.
    In summary, there are many questions that must be addressed 
to improve response when oil is spilled, especially as we 
consider drilling in outer continental shelf regions and face 
the energy renaissance in the U.S. We must take advantage of 
the current and future investments in research, translating 
them into better response.
    I believe we can accomplish this by bringing responders and 
scientists together in a partnership to determine what is known 
and what is uncertain with respect to response science.
    Once identified, those uncertainties can be used to define 
research needs and design experiences whose results can be 
translated into improved response decisionmaking, and that does 
mean a better job of minimizing the damage spills cause.
    Thank you very much.
    [The prepared statement of Dr. Kinner follows:]

  Prepared Statement of Nancy E. Kinner, Ph.D., Co-Director, Coastal 
     Response Research Center; Director, Center for Spills in the 
Environment; Professor, Civil and Environmental Engineering, University 
                            of New Hampshire
    Chairman Thune, Ranking Member Nelson and distinguished members of 
the Committee, thank you for giving me the opportunity to appear before 
you today. My name is Nancy E. Kinner and I am a professor of Civil and 
Environmental Engineering at the University of New Hampshire. I am the 
UNH Co-Director of the Coastal Response Research Center (CRRC), a NOAA-
funded center, and the Director of the Center for Spills in the 
Environment (CSE), a center that expands the scope of interaction to 
other governmental agencies, the private sector and NGOs.
1.0 The Coastal Response Research Center and The Center for Spills in 
        the Environment
    The mission of the two UNH Centers, CRRC and CSE, is to conduct and 
oversee research on spill response, assessment and restoration and make 
sure that research is transformed into practice. In addition, we serve 
as a hub for spill research and development (R&D), and facilitate 
collaboration among all stakeholders in the spill community including 
governmental agencies, NGOs, academia, and industry, both in the U.S. 
and globally. Since the Centers' inceptions in 2004, we have overseen 
34 funded research projects, conducted 48 workshops, and currently 
manage five working groups on topics such as dispersants and dispersed 
oil, data management during environmental disasters, modeling and 
submerged oil response.
    The Centers were started because NOAA and UNH, which is known for 
its strong programs in marine science and ocean and environmental 
engineering, knew that many R&D needs existed with respect to oil spill 
preparedness, response and restoration. Further, we realized that oil 
and chemical spills are always occurring and, that despite popular 
belief, there would continue to be major oil spills in the U.S. It may 
seem unusual that an oil spill center would be located in New 
Hampshire, a state that lacks any petroleum-based resources, but that 
fact makes sense when the goal is to have an independent and highly 
credible voice that can speak freely during a crisis and mediate 
difficult discussions among the diversity of stakeholders. The Centers 
have focused on R&D in a few key areas: dispersants and dispersed oil, 
toxic and sublethal effects of oil on organisms, Arctic spill response 
and restoration, human dimensions of spills, and environmental data 
management. As one example, the CRRC was asked to convene a meeting in 
May 2010, during the DWH, of a diverse group of renowned scientists to 
evaluate whether dispersants should continue to be used. Fifty 
scientists, some of whom were diametrically opposed to dispersant use, 
met for two days to examine the data and state-of-the-science, 
regarding the potential impact of dispersant use on the environment. 
The overwhelming consensus of the group was that, while removing the 
oil from the environment using mechanical recovery is preferred, it was 
not always effective because of environmental conditions such as the 
wind and waves in the Gulf. Further, the scientists concluded that up 
to that point, use of dispersants and effects of dispersing oil into 
the water column had been generally less environmentally harmful than 
allowing that oil to migrate on the surface into the sensitive wetlands 
and nearshore coastal habitats.
    In 2014, CRRC conducted a unique Forum on the campus of the 
University of New Hampshire on the 25th anniversary of the Exxon Valdez 
Oil Spill (EVOS) in Alaska and the 5th anniversary of the DWH. This 
forum brought together academicians, oil spill practitioners, industry 
representatives and Federal and state agency personnel to discuss the 
lessons learned from EVOS and DWH that could help improve future oil 
spill response (e.g., the Arctic, pipelines and rail transport). 
Several initiatives came from the Forum which has set some new 
directions for CRRC/CSE.

  <bullet> Expand the role of academic science in improving spill and 
        environmental disaster response, assessment and restoration;

  <bullet> Identify strategies and actions to improve governmental 
        communication with the public and ensure journalists the 
        information they need prior and during spills;

  <bullet> Improve outreach to Congress on spill and environmental 
        disaster science and response.

    CRRC/CSE has begun to move forward with some of these new 
initiatives. CSE provided an initial briefing on oil spill response 
since the DWH for Senate staffers on April 21, 2015, sponsored by New 
Hampshire Senators Shaheen and Ayotte. In addition, in conjunction with 
Capitol Hill Ocean's Week 2015, we will host a forum with responders 
and journalists to discuss how to improve communication and provide 
information more effectively to the public.
2.0 Research Response Since DWH
    Since the DWH, there has been a large influx of funds into oil 
spill R&D: most notably BP's $500 million over 10 years to the Gulf of 
Mexico Research Initiative (GoMRI), and the $500 million over 30 years 
given to the National Academy of Sciences for Gulf of Mexico and other 
Outer Continental Shelf R&D. Industry through the American Petroleum 
Institute (API), and other international petroleum associations (e.g., 
IOGP/IPIECA), has also funded a significant amount of new research. 
There are also some Federal (e.g., BSEE) and state (e.g., Texas, 
California) R&D programs, though these tend to be funded at lower 
levels. This influx of funding for research has focused on a number of 
issues important to future oil spill response including:

  <bullet> Short and Long Term Spill Impacts in the Gulf of Mexico as a 
        Result of DWH;

  <bullet> Studies of the Chemical and Physical Behavior of Oil 
        Released in the Environment;

  <bullet> Efficacy and Effectiveness of Various Response Actions;

  <bullet> Public Health Impacts; and

  <bullet> Social and Economic Impacts of Spills.
Gulf of Mexico Research Initiative
    The Gulf of Mexico Research Initiative (GoMRI), one of the major 
new oil spill research institutions, was formed to investigate the 
impacts of the oil, dispersed oil, and dispersant on the ecosystems of 
the Gulf of Mexico and affected coastal states in a broad context of 
improving fundamental understanding of the dynamics of such events and 
their environmental stresses and public health implications. Another 
focus of GoMRI is developing improved spill mitigation, oil and gas 
detection, characterization and remediation technologies.
    The ultimate goal of GoMRI will be to improve society's ability to 
understand, respond to and mitigate the impacts of petroleum pollution 
and related stressors of the marine and coastal ecosystems, with an 
emphasis on conditions found in the Gulf of Mexico. Knowledge accrued 
will be applied to restoration and to improving the long-term 
environmental health of the Gulf of Mexico. GoMRI has issued numerous 
RFPs for consortia and individual investigators.
National Academy of Sciences
    As part of legal settlements associated with the DWH, the National 
Academy of Sciences (NAS) established a Gulf Research Program to fund 
and conduct activities to enhance oil system safety, human health, and 
environmental resources in the Gulf of Mexico and other U.S. outer 
continental shelf regions that support oil and gas production. The 
Program will work to enhance oil system safety and the protection of 
human health and the environment in the Gulf of Mexico and other U.S. 
outer continental shelf areas by seeking to improve understanding of 
the region's interconnecting human, environmental, and energy systems 
and fostering application of these insights to benefit Gulf 
communities, ecosystems, and the nation, safety, human health, and 
environmental resources. Given this context, the Program will address 
three interconnected goals:

  <bullet> Goal 1: Foster innovative improvements to safety 
        technologies, safety culture, and environmental protection 
        systems associated with offshore oil and gas development;

  <bullet> Goal 2: Improve understanding of the connections between 
        human health and the environment to support the development of 
        healthy and resilient Gulf communities; and

  <bullet> Goal 3: Advance understanding of the Gulf of Mexico region 
        as a dynamic system with complex, interconnecting human and 
        environmental systems, functions, and processes to inform the 
        protection and restoration of ecosystem services.

    The Program will fund studies, projects, and other activities using 
three broad approaches specified in the legal settlements: research and 
development, education and training, and environmental monitoring.
ICCOPR
    The Interagency Coordinating Committee on Oil Spill Research 
(ICCOPR) was created by Congress in the Oil Pollution Act of 1990 (OPA 
90). ICCOPR is charged with two general responsibilities to: (1) 
prepare a comprehensive, coordinated Federal oil pollution research and 
development plan; and (2) promote cooperation with industry, 
universities, research institutions, state governments, and other 
nations through information sharing, coordinated planning, and joint 
funding of projects. ICCOPR reports on its activities to Congress every 
two years. It is comprised of 15 Federal independent agencies, 
departments, and department components. The USCG chairs ICCOPR with 
NOAA, BSEE, and EPA rotating assignments as the vice-chair every two 
years.
    ICCOPR is currently preparing, with the assistance of CRRC/CSE, an 
Oil Spill Research and Technology Plan (OSRTP) that will set the 
priorities for oil spill research for the next six years. The OSRTP 
will be completed in 2015.
Industry
    In the wake of the DWH spill, the petroleum industry, API and IOGP/
IPIECA, launched four Joint Industry Task Forces (JITFs) to critically 
assess capabilities and performance. Each JITF brought forth subject 
matter experts to identify best practices in offshore drilling 
operations and oil spill response and to share that knowledge across 
industry. The goal is to ensure environmental protection through 
enhanced safety.
    The Oil Spill Preparedness and Response JITF is examining 
industry's ability to respond to a ``Spill of National Significance 
(SONS)'' or other large spills.
    The program is developing guidance and planning documents, 
recommended practices, training and exercise guidelines, technology 
evaluations, and developing a database for research activities. As part 
of the overall research program, industry is developing communications/
outreach and decision making tools. Topics include:

  <bullet> Spill response planning;

  <bullet> Oil sensing and tracking;

  <bullet> Dispersants;

  <bullet> In situ burning;

  <bullet> Mechanical recovery

  <bullet> Shoreline protection and

  <bullet> Alternate response technologies.
3.0 Impediments to Transforming Research into Improved Response
    The combined effort of all these programs has resulted in a 
significant body of information. It is difficult to remain current on 
all the papers being published related to oil spills. Each month, 
several new papers appear in journals and there are two to three major 
conferences each year solely dedicated to oil spill research. The 
question is, how much of this research will result in improvements to 
oil spill response? Unfortunately, the answer might be, not very much. 
There are several reasons for this.
    A primary reason is that researchers and responders do not have 
much opportunity to interact and coordinate research. They usually do 
not attend the same meetings. Most researchers are not familiar with 
what occurs during a response: the pace at which decisions must be made 
and the types of trade-offs considered during a spill. Conversely, 
responders are often not familiar with the latest experimental 
techniques which scientists have at their disposal to assist in 
response decision-making.
    Another significant problem is that it is very difficult to 
simulate the environment in a laboratory or small test tank or with 
mathematical modeling. For example, even though a solution of 200 ppm 
of dispersants can be created in water to test its toxicity on 
organisms, the findings may not be translated into what would happen in 
the field where concentrations of dispersants are likely to be at least 
10 times lower. In addition, it is incredibly difficult to simulate the 
mixing that occurs at a deep well blowout where many gallons of oil and 
gas are billowing out of a pipe rapidly at very high pressure. Yet this 
is exactly what must be done to determine whether dispersants prevented 
oil from reaching the surface of the GOM during the DWH.
    Finally scientific journals almost always publish papers that show 
effects: where the research shows that the experimental conditions 
resulted in a measurable change in some parameter. If no change is 
observed, a so-called ``null'' result, the paper will rarely be 
published even if that null result occurs many times. For example, if 
an experiment was conducted where oil was added to very cold seawater 
that contained naturally occurring microbes and the oil concentration 
did not change over time, the results would probably not be published. 
However, responders fighting an oil spill in the Arctic would want to 
know this information. You can see the implicit bias that might result 
when examining the scientific literature for possible response options 
that might improve spill response.
4.0 A Path Forward
    So how can we effectively sort through the research that has been 
published since the DWH and the older, relevant research? First, we can 
bring responders and scientists together to develop research needs and 
design and conduct experiments to address those needs. One way we have 
done this at the Centers is to have responders and response scientists 
act as liaisons during the development of request for proposals (RFPs), 
selection of projects, design of experiments, and translation of 
results into practice. This approach was used very effectively in 
developing the Environmental Response Management Application (ERMA) 
which was used as the Common Operating Picture (COP) during the DWH and 
provided the public easy access to information about the spill.
    However, even if we start bringing responders and scientists 
together in this manner today, the results of the research would not be 
available for years. In the interim, we need to sort through the large 
amount of research published to determine if, and how, it can improve 
response. One example of how this might be done is a partnership 
between our Centers, NOAA and EPA. We have convened more than 70 
scientists, representing a diversity of perspectives and expertise in 
the research and response communities, to read all of the applicable 
literature and determine the state-of-the-science of dispersants and 
dispersed oil in spill response especially as it applies to the Arctic. 
The scientists are asked to determine: (1) what is known; and (2) what 
is uncertain. Over 500 peer-reviewed papers and reports have been 
amassed in a database covering the period June 2008 to the present and 
this is been combined with an existing database of dispersant research 
from 1962 to 2008. The scientists have read the articles within their 
area of expertise and have been discussing whether each paper simulates 
the environment, has the necessary controls, and is statistically 
sound. What we have observed through our facilitated discussions is 
that a group of scientists can come to consensus when they focus on the 
details of the science. The results of the state-of-the-science 
discussions on dispersants and dispersed oil should be available later 
this year. I see this process as a way forward on many of the thorny 
issues of applying oil spill R&D to practice.
5.0 Summary
    When oil is spilled, there is no single ``silver bullet'' response 
technology that provides a universal solution. Oil spills are bad, and 
cause very bad things to happen. The goal of response is to minimize, 
as much as possible, the damage. Hence, the challenge is to translate 
the results of oil spill research and development into better response.
    In summary, there are many questions that must be addressed to 
improve response when oil is spilled, especially as we consider 
drilling in other outer-continental shelf regions and in the face of 
the energy renaissance in the U.S. We must take advantage of current 
and future investments in research, translating them into better 
response. I believe we can accomplish this by bringing responders and 
scientists together to determine what is known and what is uncertain 
with respect to response science. Those uncertainties can be used to 
identify research needs and design experiments whose results can be 
translated into improved response decision-making before, during and 
after spills.

    The Chairman. Thank you, Dr. Kinner. Dr. Reddy?

           STATEMENT OF CHRISTOPHER M. REDDY, Ph.D.,

        SENIOR SCIENTIST, DEPARTMENT OF MARINE CHEMISTRY

 AND GEOCHEMISTRY, WOODS HOLE OCEANOGRAPHIC INSTITUTION (WHOI)

    Dr. Reddy. Chairman Thune and Ranking Member Nelson, 
members of the Committee, thank you for the invitation to 
participate in this hearing, and I have three points to make.
    For the record, I am a senior scientist in the Department 
of Marine Chemistry and Geochemistry at Woods Hole 
Oceanographic Institution. I have extensive experience studying 
oil spills, which are detailed in my written testimony, 
including the Deepwater Horizon, as well as the Exxon Valdez, 
and in the last year, I have responded to three oil spills, one 
in Bangladesh, Galveston Bay, Texas, and Yellowstone River.
    In September 2010, I was asked to join the Unified Command, 
essentially the oil spill headquarters to the Deepwater Horizon 
in New Orleans, to serve as a liaison between Federal 
officials, industry, and the academic community.
    At that time, there was a disconnect and some unsettling 
tensions. I can tell you very happily that things have changed 
for the better, that the unprecedented Deepwater Horizon 
disaster created an unprecedented intersection of stakeholders, 
and the silver lining to the Deepwater Horizon disaster is it 
compelled previously disparate cultures, scientists and 
responders, much like Dr. Kinner just mentioned, to introduce 
themselves and join forces.
    I would be remiss without giving great credit to my Senator 
from Massachusetts, Senator Markey, who ran as United States 
Congressman in 2010, demanded the increased transparency and 
availability of information from the responders so academia 
could contribute.
    I believe this has led to the silver lining that I just 
discussed, and I also just wrote about this in the Huffington 
Post last week.
    My second point is I got asked a lot of questions about the 
Deepwater Horizon in the last month or so, coming up to the 
fifth anniversary. The one that is asked often is how bad is 
the Gulf today.
    There were many studies that have been done, documenting 
damages, simulating them in the lab, and you likely heard about 
many of these results, but I would advise you to read the fine 
print. I would advise you to think about where these studies 
were, what time they were done after the spill, where they were 
in the broader context, and even follow up and say how certain 
are you with these results.
    Let me give you an example from some work I have done. I 
published a paper in November 2014 examining the evidence of 
contamination on the sea floor near a damaged well. It was a 
massive effort. Our upper end estimate was that 16 percent of 
the total oil discharged during the accident fell within a 
1,250 square mile patch on the deep floor.
    What was not often mentioned was our lower end estimate, 
that we might only think there is 2 percent on the bottom of 
the sea floor. That is a pretty big range, and that is the fine 
print, and that is the uncertainty that we have to ask and push 
for.
    Moreover, that research that got a lot of press was based 
on studies that ended in 2012. Today, I cannot say how much oil 
is still on the Gulf of Mexico floor. I cannot say how toxic it 
is, and I cannot say whether or not it is negatively affecting 
the Gulf.
    How is the Gulf today? It is far from the graveyard 
predicted by some experts in the throes of the spill, but it is 
not a picture of health. What we hear most about are damages 
that are compartmentalized and localized, and the story is not 
complete, as studies are still underway.
    It is probably frustrating to you that you are not going to 
get all the answers you want, and the rub is we cannot put the 
Gulf of Mexico in an MRI. It would have been great if we had 
some physicals on the Gulf of Mexico and MRI scans in 2008, 
2009, 2010, and as of yesterday. It would be a much easier 
presentation today to show those MRI scans of the Gulf. We do 
not have that.
    My advice right now is to let science take its course and 
allow for all the pieces to be placed together, and then we can 
provide a full accounting.
    My last point is the one I am most passionate about, about 
dispersants. I think the media coverage of dispersants has been 
lopsided, and we regularly hear that dispersants amplified 
damage in the Deepwater Horizon and are continuing to harm 
marine life.
    These are the negatives, and there is certainly no doubt 
there are negatives with the use of dispersants, but they are 
benefits, which is precisely why dispersants were authorized 
and part of that discussion that Dr. Kinner mentioned.
    When sprayed on an oil slick, the resulting micro size 
droplets freely mix into water effectively breaking apart the 
coating and diluting oil over a greater volume. Both effects 
can be beneficial.
    Dilution and also a chance that we are going to reduce 
oiling on the coast line. What is also lost, and unfortunately, 
is not available, is anecdotal evidence that the air quality of 
responders near the well was better when the dispersants were 
used subsurface. That means if we did not use dispersants, 
there is a chance that it might have taken more than 87 days to 
shut it down.
    What we hear about in the media are only the negatives. 
What is not discussed are the benefits. I think the question 
that really needs to be asked is what if we did not use 
dispersants? By weighing this question, we can weigh the 
negatives against the benefits to know if dispersant use caused 
more harm than good.
    If I can leave you with just one take away this morning, it 
is the pressing need to perform an objective, thorough, and 
comprehensive post-Deepwater Horizon analysis on the net usage, 
was it good or was it bad.
    This is a non-trivial exercise. It will take a lot of time, 
but it is worthy of the attention. It touches upon several of 
the recommendations of the President's Commission, it will 
settle many of the concerns about the Deepwater Horizon, and it 
will be critical to how spills are tackled in the future.
    To me, the absence of a study that looks at the overall net 
benefit analysis, which is a huge study, is the elephant in the 
room. It is so big that we cannot ignore it, and I would 
recommend Congress endorse such a study by the National Academy 
of Science.
    Thank you for your attention.
    [The prepared statement of Dr. Reddy follows:]

 Prepared Statement of Christopher M. Reddy, Ph.D., Senior Scientist, 
      Department of Marine Chemistry and Geochemistry, Woods Hole 
                    Oceanographic Institution (WHOI)
    Chairman Thune and Ranking Member Nelson and Members of the 
Committee:

    Thank you for the invitation to participate in the hearing, ``Five 
Years After the Deepwater Horizon: Improvements and Challenges in 
Prevention and Response.'' It's an honor to provide my observations and 
recommendations on future oil spill response, in particularly from 
``lessons learned'' in the aftermath of the Deepwater Horizon (DWH) 
disaster. This statement reflects my personal professional views and 
does not represent those of my institution, the Woods Hole 
Oceanographic Institution.
    For the record, I am a Senior Scientist in the Department of Marine 
Chemistry and Geochemistry at the Woods Hole Oceanographic Institution 
(WHOI) in Woods Hole, Mass., principally investigating marine 
pollution. I have published more than140 peer-reviewed scientific 
journal articles and several book chapters on the chemistry of oil, how 
it interacts with the natural environment, and related subjects. I have 
studied or am currently studying the aftermaths of oil spills that 
occurred in 1969, 1974, 1996, 2003, two in 2007, and also the 1989 
Exxon Valdez spill. More recently, I have been involved the Galveston 
Bay, Texas, spill in March 2014, the Bangladesh spill in December 2014, 
and the Yellowstone River oil spill in January 2015.
    For the past five years, I have focused considerable efforts on the 
Deepwater Horizon oil spill. I have visited the Gulf of Mexico more 
than twenty times, participated or led four open-water trips near the 
Macondo well and three overflights of the region, collected hundreds of 
oiled beach samples, published 16 peer-reviewed papers on DWH, 
consulted with government and response officials, provided countless 
interviews to the media and written several opinion pieces on the 
topic, including ones on the role of academic scientists in disaster 
response. In September 2010, I was a scientist working at the Unified 
Command in New Orleans, the official operating center responding to the 
DWH oil spill.
    In my experience, the disaster's impact was enormously exacerbated 
because the Macondo well pipe ruptured 5000 feet deep--a depth never 
encountered before. There was little or no experience in getting a such 
a rupture under control or tracking its consequences at those depths. 
This was aqua incognita to most industry and oil response officials.
    But it was a familiar neighborhood for scientists at my 
institution, who had long conducted basic research in the deep sea and 
mustered their deep-submergence technology and expertise to help. In 
the heat of the disaster, I worked with WHOI scientists and engineers 
who had developed an instrument, an Isobaric Gas-tight Sampler (IGT) to 
sample and preserve fluids spewing from seafloor hydrothermal vents. We 
used an IGT to get a definitive sample of oil spewing right from the 
Macondo well. On the same mission, I worked with Sentry, a deep-diving 
autonomous underwater vehicle--used to find plumes from hydrothermal 
vents--to map a trail of hydrocarbons from the well flowing at depth 
through the Gulf of Mexico, something that had theorized but never seen 
before.
    In this story lies two lessons learned from Deepwater Horizon: This 
nation's community of academic scientists represents an insufficiently 
tapped reservoir of expertise and assets that can be of great service--
both during and before a disaster.

  (1)  We should seize the opportunity to build on the DWH experience 
        to improve the integration of academic scientific expertise in 
        disaster planning and response.

  (2)  Basic research paid off--in this case, in unanticipated ways. We 
        should invest in baseline research to understand all facets of 
        environments we want to drill in--before we drill, rather than 
        after an oil spill. This increased knowledge will give us the 
        capacity to recognize opportunities to prevent future damages 
        and to know quickly, under crisis conditions, where and how to 
        allocate assets to limit damage.
Integration of the academic science community
    I flashback to the spring and summer of 2010 while oil was flowing 
unstoppably from the seafloor 5,000 feet deep in the Gulf. U.S. 
officials and industry had an impressive track record responding to the 
hundreds of oil spills that occurred every year. But those spills, 
unlike Deepwater Horizon, were in shallow waters. Government officials 
had little need to keep abreast of such things as oceanographic robots 
equipped to operate at great depths or biological communities living on 
the deep seafloor. They were generally unaware of singular and valuable 
assets and technology that academia had available.
    Academic scientists, on the other hand, had little incentive and 
few avenues to add their expertise. These were two cultures that 
infrequently met and were unaware of one another's perspectives.
    In September 2010, I was asked to join the Unified Command to serve 
as a liaison between Federal officials and the academic community. I 
saw that some Federal officials were bitter toward my colleagues and 
me, and much of it was justified. They thought we did not appreciate 
their efforts and successes and that we were naive about their shorter-
term responsibilities to control the disaster. They remarked that 
academics did not understand that occasionally our highhanded comments 
to the press forced the officials to respond and took precious time 
away from them performing their urgent mission.
    The unprecedented Deepwater Horizon disaster created an 
unprecedented intersection of stakeholders. A silver lining to the DWH 
disaster is that it compelled previously disparate cultures to 
introduce themselves and join forces.
    One piece of evidence for this came just a few weeks ago in a 
single e-mail. It was sent by one of the lead Federal officials 
responsible for responding to oil spills after an inquiry from one of 
my academic colleagues. It was sent the day after the April 1 explosion 
of a Mexican oil-processing rig in the Gulf of Mexico that killed four 
people and created a slick, informing the recipients what happened, 
what was known, and the chances of oil reaching U.S. waters.
    It was the recipient list that made it a milestone event. The e-
mail was sent not only to .govs and .mils, but .edus. So not just to 
employees in government agencies, but also to several scientists from 
academic institutions who have been conducting research in the Gulf of 
Mexico. I would wager that the Federal official who sent the recent e-
mail and her predecessors had written similar e-mails, faxes, and 
teletypes about past oil spills, small or large, without including 
academic researchers. Now the government official is sending the same 
information she gives to her own people to a host of academic 
scientists--not a watered-down version, or even worse, a carefully 
worded message to ``stay away.''
    Before Deepwater Horizon, there were few meetings for much 
interaction among the federal, academic, and industry stakeholders and 
media to cover the results. The annual meeting of the new Gulf of 
Mexico Research Initiative (GoMRI), funded after DWH, has now provided 
a forum for them to meet, exchange ideas, share data, and begin 
collaborations.
    I have participating in another project that is forging key 
relationships between agency responders and academic experts: the 
``Science Partnerships Enabling Rapid Response'' (SPERR) project, 
coordinated by the Center for Ocean Solutions and ChangeLabs at 
Stanford University. Academic scientists and government decision-makers 
from agencies such as NOAA, EPA, Coast Guard and USGS involved in this 
project have a common goal: to understand the obstacles to effective 
scientist-responder collaborations that emerged during Deepwater 
Horizon and codesign a solution to bridge the cultural divide and build 
trust across those communities.
    Over the last year, the SPERR project has explored the tensions 
that arose around motivations and incentives within academic research 
institutions and government response agencies, and their inability to 
collaborate before and during large oil spills. The project team and 
partners have since crafted a solution that we believe will powerfully 
address these tensions and catalyze the agency and academic 
partnerships and resource sharing pathways that are imperative for 
improving oil spill response in the future.
    The proposed solution, called the Science Action Network, will be a 
network of academic and professional scientists that are linked to 
regional government planning and response bodies--such as Regional 
Response Teams--to coordinate and streamline scientific input for 
decisionmaking. In the proposed Network, Regional Academic Liaisons in 
each of the ten response regions would ensure academic expertise is 
leveraged from universities, and government bodies such as NOAA and the 
Coast Guard have streamlined access to relevant science before and 
during disasters.
    As we glean lessons learned from Deepwater Horizon, there is strong 
consensus among agencies and academia alike: improved integration of 
science and scientific expertise into disaster planning and response is 
essential. In order for a scaled, national solution like the Science 
Action Network to be implemented, funding is needed for formalized 
coordinator positions, such as the Regional Academic Liaisons, and 
Network operation. We must institutionalize the communication and 
collaboration demonstrated by the e-mail I cited, so that the next time 
a spill occurs, we can effectively leverage our unparalleled scientific 
expertise to improve decisionmaking and, ultimately, minimize spill 
impacts on human and ecological communities. The challenge of 
integrating scientific expertise into decision-making is not unique to 
oil spills and the investment in formalized solutions like the Science 
Action Network will pay off in the short term across all types of large 
disasters.
    I've already seen beneficial changes:

  <bullet> When I was researching some mysterious oil sheens near the 
        DWH site in 2012, BP provided me with satellite overflight data 
        and other information. With BP's help, we were able to grab 
        invaluable samples that eventually showed that the oil was not 
        from a leak at the repaired Macondo well, but a trickle of oil 
        that leaking from the wreckage of the toppled rig.

  <bullet> In March 2014, the Kirby barge released 168,000 gallons of 
        fuel oil in Galveston Bay, Texas. I immediately dispatched a 
        team from my lab to collect samples. After several exchanges 
        with NOAA officials, my team was granted badges and easy access 
        to study this location. This contrasts starkly with an 
        experience I had in 2007 when I was trying to collect samples 
        in San Francisco Bay following the Cosco Busan oil spill. 
        Gaining access to field samples was challenging, and often I 
        was not permitted access to oiled locations, limiting my 
        capacity to provide valuable insights into that spill.

  <bullet> In December 2014, I heard that there was a devastating 
        release of a very heavy, viscous oil along the coast of 
        Bangladesh. With a keen interest in the behavior of these types 
        of oils, I offered my services and willingness to help NOAA 
        personnel who was sent to assist. I was sent a sample of the 
        oil and was able to prepare a report on the behavior of the 
        spilled oil, which was forwarded to the Bangladeshis.

  <bullet> In January 2015, there was a pipeline break in the 
        Yellowstone River in Montana that released Bakken crude oil. 
        The use and transport of Bakken crude oils continues to 
        increase, but little is know about how they biodegrade, so I e-
        mailed NOAA personnel on how I could access samples. Thru a 
        NOAA intermediate, I was introduced to the lead EPA on-scene 
        coordinator. With assistance and guidance, he introduced me to 
        the spiller who shared samples with me. I was then able to 
        provide a report on the fate of the oil to the spiller within 
        two months.

    Last Thursday, I was a guest lecturer in Commander Gregory Hall's 
marine pollution class at the United States Coast Guard Academy in New 
London, Conn. I could have presented some new scientific results on DWH 
on how sunlight broke down the oil, how much oil is on the seafloor, or 
that some oiled samples we find on the beaches of the Gulf are not from 
the Deepwater Horizon, but my lesson for these future Coast Guard 
officers--who will be on the frontline of lines of future oil spills--
is that they will have to interact with numerous stakeholders who have 
different interests. What I have learned, and others have observed, is 
that the best outcomes occurred when members of academia and the oil 
spill response community had pre-existing relationships. I encouraged 
these future officers to get to know those they may work with during a 
crisis. It may sound trite, but a cup of coffee and an exchange of e-
mails may save miles of coastlines from oiling.
Wise pre-emptive research
    I could give you numerous examples--from Woods Hole Oceanographic 
Institution alone--where investments in basic research paid 
unanticipated dividends in assessing the DWH disaster. WHOI and other 
academic institutions were ``preadapted'' to respond to the spill. 
``Preadaptation'' is a term borrowed from evolutionary biology. It 
refers to natural selection turning an existing structure to a novel 
use when the right conditions develop. In an analogous manner, our 
culture of scientific inquiry meant that knowledge applicable to the 
oil spill response already existed and could be applied to a new use.
    But my suggestion is not a blanket call for more investment in 
research because it often turns out to be useful and applicable. More 
specifically, I recommend more investment in collecting baseline 
information about environments we intend to drill in.
    The DWH disaster exposed how little we knew about fundamental 
physical, chemical, and biological conditions and processes that exist 
in the Gulf of Mexico. In an area full of oil rigs, where a spill was a 
good bet (if not inevitable), we had not conducted extensive, long-term 
research that would have captured what the Gulf was like before it was 
dosed with oil. We lacked baseline knowledge about preexisting 
conditions, making it extremely hard to assess damages afterward.
    And although after-the-fact assessment studies will teach us 
lessons, in some ways it is like providing knowledge to firefighters 
and insurance adjusters after the fire. Another approach is to focus 
research on learning what we can about how individual ecosystems 
operate--because they all operate differently--before we invest in 
constructing oil rigs in them.
    Let us learn from the Gulf before we look to drilling in the 
Arctic. The Arctic is a unique ecosystem that we know very little 
about. It is also far more unpredictable, remote, harsh than the Gulf, 
with far less infrastructure nearby to combat spills.
    With knowledge and predictability about their operating 
environment, oil spill responders will have the ability to plan more 
effective responses and be prepared with necessary equipment. In other 
words, what to do and what is needed and where--in much the way, for 
example, that firefighters have surveyed how tall the buildings are in 
their city are and have mapped their city's streets, so that they can 
take the fastest routes, bringing trucks with ladders of sufficient 
heights.
    Oil spills are inevitable. This is a pay-me-now-or-pay-me-later 
situation in which up-front investments now can save lives, property, 
and money later.
    I appreciate the opportunity to testify and am prepared to respond 
to any questions from Members of the Committee.

    The Chairman. Thank you, Dr. Reddy. Dr. Joye?

         STATEMENT OF SAMANTHA B. JOYE, Ph.D., ATHLETIC

          ASSOCIATION DISTINGUISHED PROFESSOR OF ARTS

          AND SCIENCES, PROFESSOR OF MARINE SCIENCES,

                     UNIVERSITY OF GEORGIA

    Dr. Joye. Good morning, Chairman Thune, Ranking Member 
Nelson, and members of the Committee. Thank you for the 
opportunity to provide testimony today regarding the lessons 
learned from the Deepwater Horizon.
    My name is Samantha Joye. I am a Distinguished Professor at 
the University of Georgia. My research examines naturally 
occurring microbial processes that mediate oil and gas cycling 
in the Gulf of Mexico and elsewhere.
    I am going to limit my testimony today given that my 
colleagues here have covered many of the points that I wanted 
to touch on, but I hope to impress upon you the need for 
developing an academic response network, complete with 
necessary infrastructure, tools and technology, for academic 
scientists to be out on the water working closely with the 
National Incident Command within days of a disaster.
    Such a collaboration would reduce response time to an 
offshore spill, potentially limiting long term damage to 
offshore and nearshore ecosystems. A shortened response time 
would save resources and could save lives. It will also reduce 
hydrocarbon exposure, acute ecological impacts, and economic 
impacts regarding tourism and fisheries.
    The cost benefit of investing in effective oil spill 
response mitigation technologies and infrastructure is almost 
assuredly positive, given the high density of oil production 
platforms in the Gulf and the increasing number of drilling 
endeavors undertaken in ultra-deep water and in extremely gas 
rich reservoirs.
    One of the big issues that we faced when the Deepwater 
Horizon occurred was a lack of communication. This scientific 
action network, which is being developed by scientists and 
individuals at Stanford University, and both Dr. Reddy and Dr. 
Kinner are involved in this effort, I provided Senator Nelson's 
staff with some copies and information about this network.
    I think this network would move us forward in terms of 
bringing together Federal responders and academic scientists.
    In terms of the oil spill, I want to talk about a couple of 
critical things. The most important is the issue of 
environmental baselines. Dr. Reddy just touched on this 
briefly, that it would be nice if we had a pre-Deepwater 
Horizon MRI of the Gulf of Mexico. The fact is the Minerals 
Management Service funded many, many studies of the Gulf of 
Mexico prior to the oil spill. The problem was that none of 
those studies had a microbiological component involving oil and 
gas degradation.
    There are many studies of deepwater chemosynthetic 
communities. There are many studies of deepwater invertebrate 
communities, many studies of physical oceanography of the Gulf 
of Mexico, those physical oceanographic studies were really 
insufficient to help us do what we needed to do in terms of the 
Deepwater Horizon, but you cannot really quantify an impact 
when you do not know what the original condition was.
    That means you have to make guesses, and I think that 
hinders the natural resource damage assessment process that is 
going on today because we are making guesses as to what those 
original baselines were.
    Few long-term baseline datasets exist in the Gulf of Mexico 
regarding microbiology. One of the few was funded by the NOAA 
National Institute of Undersea Science and Technology at 
Mississippi Canyon Block 118, which lies about 20 miles 
northwest of the Deepwater Horizon wellhead.
    The baseline microbiological data from this site was 
integral in providing the background information that we needed 
to see how the microbial community was evolving in the water 
column after the Deepwater Horizon blew out.
    Environmental baselines are also lacking on the natural 
distributions of hydrocarbons in the Gulf and their geochemical 
fingerprint. You have heard many people say, I am sure, that 
you cannot really trace the oil that you might find on the sea 
floor to the Macondo wellhead because there is a lot of oil 
seeping out of the seabed in the Gulf and it is all the same.
    It is not all the same. We do not really know how different 
all those reservoirs are, but we need to know how different 
those reservoirs are. We need to be able to go in there and do 
some CSI geochemistry and resolve the actual fingerprints of 
those individual reservoirs.
    Finally, to be prepared for the next incident, the research 
community needs well validated models of deep circulation and 
the ability to deploy tens if not hundreds robotic floats with 
appropriate instrumentation. The benefit of providing robotic 
floats or underwater vehicles to do plume tracking and oil and 
gas tracking for us is that it limits the requirements for ship 
times out on the water.
    I would like to conclude for a plea for environmental 
baselines again. Environmental baselines are absolutely 
important for the Gulf of Mexico ecosystem and for the Arctic 
ecosystem in light of the drilling that is going to be probably 
undertaken there in the future.
    Environmental baselines, obtaining necessary environmental 
baselines, are a goal that could be achieved as part of the 
Department of Interior Bureau of Ocean Energy Management's 
mission since they are mandated to provide funding to support 
documentation of environmental baselines through the 
environmental studies program.
    However, BOEM's budget for the environmental studies 
program is $35 million a year. This may sound like a lot but it 
is not a lot when you consider the area over which this money 
must be spread.
    Obtaining proper baselines for the Gulf and Arctic alone 
would cost substantially more than $35 million a year, and I 
personally believe that these costs could and should be shared 
by industry.
    Sufficient environmental baselines are the best instruments 
of industry and the trustees, thus, I encourage Congress and 
the Administration to increase BOEM's funding and give them the 
authority to require industry to obtain baselines and ongoing 
environmental monitoring data at all locations impacted by oil 
and gas development and production.
    These requisite data collected by proper standardized 
protocols and sampling intervals should be determined by a 
panel of experts selected and convened by either BOEM or the 
National Academy of Science, potentially in collaboration with 
NOAA's Emergency Response Division.
    Industry should shoulder some of the cost of this 
monitoring program, and I believe the funds would be best 
administered competitively through BOEM.
    With that, I conclude my testimony, and answer any 
questions you might have.
    [The prepared statement of Dr. Joye follows:]

  Prepared Statement of Samantha B. Joye, Ph.D., Athletic Association 
   Distinguished Professor of Arts and Sciences, Professor of Marine 
                    Sciences, University of Georgia
    Good morning Chairman Thune, Ranking Member Nelson, and members of 
Committee. Thank you for giving me the opportunity to provide testimony 
regarding the lessons learned and long term environmental impacts of 
the Deepwater Horizon (DWH)/Macondo oil well blowout (hereafter Macondo 
Blowout), which devastated the Gulf of
    Mexico ecosystem beginning in April 2010. My name is Samantha Joye 
and I am a Distinguished Professor at the University of Georgia. My 
research examines the naturally-occurring microbial processes that 
mediate oil and gas cycling in the Gulf of Mexico and Arctic Ocean, two 
areas where natural seepage of hydrocarbons is widespread. I have 
published over 120 peer-reviewed papers on these and related subjects. 
I have worked in the Gulf of Mexico ecosystem for 20 years and continue 
to do so.
    For this hearing, I was asked to discuss what the scientific 
community has learned in the past five years in the wake of the Macondo 
Blowout, the lingering environmental impacts, as well as my thoughts on 
how to move forward so that we are better prepared as a research 
community and as a response community for the next incident. My 
comments represent the not only my opinions, but those of my colleagues 
within the consortium that I direct, and of the broader scientific 
community working in the Gulf system, of which I am an active 
participant. The topic of this hearing could not be more timely. 
Recently, John Amos summarized the number and location of hazardous 
material spills in the Gulf since the 2010 DWH disaster: 10,000 spills 
of various sizes have occurred in the past five years. Clearly, it is 
not a matter of if, but rather when, the next large accidental offshore 
marine oil discharge occurs in the Gulf of Mexico.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Figure showing the locations of hazardous material spills in the 
Gulf since 2010. This is time 5-yr aggregate map; the time series is 
available at the SKYTRUTH website: (http://bit.ly/1aLX5UF).

    On April 20, 2010, a chain of events that ultimately resulted in 
the most significant offshore oil release in U.S. history began. The 
Deepwater Horizon, a dynamically positioned offshore mobile drilling 
unit, was drilling a production well in the Macondo Prospect, located 
in Mississippi Canyon lease block 252, about 40 miles offshore if the 
southeast coast of Louisiana. The night of April 20, 2010, rig 
operators experienced a loss of well control, resulting in an 
uncontrolled blowout. The explosion and subsequent fire on the platform 
killed eleven men and injured sixteen others. The blowout preventer, 
which should have cut the riser pipe at the seafloor and sealed the 
blown out well, failed and the fire on the platform raged for two days. 
On April 22nd, the Deepwater Horizon sank, initiating an uncontrolled 
release of oil and gas from the seafloor that lasted for 87 days and 
introduced some 5 million barrels of oil (210 million gallons) and 
500,000 metric tons of methane into the Gulf of Mexico ecosystem.
    I am qualified to provide testimony on the impacts of the Macondo 
blowout based on my detailed knowledge of the Gulf ecosystem and 
through my role as Director of a large research consortium that is 
tracking long-term impacts and recovery from the Macondo blowout. I was 
among the first academic responders to the DWH oil spill, serving as 
chief scientist on the second academic response cruise on board the R/V 
Walton Smith in May/June 2010. Being out on the water in May/June 2010, 
August/September 2010, and November/December 2010, I witnessed, first 
hand, the devastating environmental consequences of this deep-water oil 
well blowout. I was part of the scientific team that discovered the 
``underwater oil plumes'' and led the effort that discovered freshly 
deposited sedimentary layers containing weathered oil that extended 
over a large parts Gulf seabed in late August 2010.
    Since 2010, we have continued and expanded our work in the Gulf 
with the aim of conducting long term monitoring studies and directed 
laboratory experiments to elucidate the impacts of oil, chemical 
dispersant, and dispersed oil on Gulf microbial communities, in both 
the water column and in deep sea sediments. I am the Director of the 
``Ecosystem Impacts of Oil and Gas Inputs to the Gulf'' (ECOGIG) 
research consortium (www.ecogig.org), a group of 29 scientists 
conducting DWH-related research. Our consortium is funded on a 
competitive basis by the Gulf of Mexico Research Initiative (GoMRI), 
which was created to administer the $500M research fund BP provided to 
support DWH-related research over a 10-year period. The ECOGIG mission 
is to understand the environmental signatures and impacts of natural 
hydrocarbon seepage versus that of abrupt, large hydrocarbon discharges 
on coupled benthic and pelagic processes in deepwater ecosystems in the 
Gulf of Mexico, and to chart the long-term effects and mechanisms of 
ecosystem recovery from the 2010 Macondo blowout.
    My testimony today is limited to issues relevant to offshore, 
deepwater environments and I will describe the major lessons learned 
and long impacts of the Macondo Blowout. I also hope to impress upon 
you the need for developing an academic response network, complete with 
necessary infrastructure--tools and technology--to be on the water 
within days of disaster. This network of academic responders would work 
closely and collaboratively with National Incident Command. Such a 
collaboration would reduce response time to an offshore spill, 
potentially limiting long term damage to offshore and nearshore 
ecosystems. A shortened response time saves resources and could save 
lives, and will also reduce hydrocarbon exposure, acute ecological 
impacts, and economic impacts (fisheries, tourism). The cost-benefit of 
investing in effective oil spill response and mitigation technologies 
and infrastructure is almost assuredly positive, given the high density 
of oil production platforms in the Gulf and the increasing number of 
drilling endeavors undertaken in ultra-deep water and in extremely gas-
rich (e.g., Tertiary) reservoirs.
Preface
    The Gulf of Mexico ecosystem is representative of a highly stressed 
oceanic environment--multiple stressors affect the system from almost 
every direction and this was the case before the Deepwater Horizon/
Macondo oil well blowout. Nutrient over-enrichment, seasonal hypoxia, 
fishery stress, pollution, intense industry activity, warming waters, 
and ocean acidification have collectively pushed the Gulf ecosystem to 
the point of collapse. The Macondo Blowout was yet another 
anthropogenic impact and it has had a tremendous affect on this 
ecosystem.
Lessons Learned from the Deepwater Horizon Disaster
Assessing impacts of an offshore, open ocean oil discharge represents a 
        formidable challenge.
    At the peak of the DWH incident, oil covered 29,000 square miles of 
the Gulf's surface, an area comparable in size to the state of South 
Carolina (32,020 square miles). An oceanographic research vessel 
travels at about 10 miles an hour. Imagine attempting to characterize 
the vegetation and soil all across South Carolina by driving in a car 
at 10 miles an hour across the state. Given the large area, you could 
only take a sample every few hours, perhaps 8 samples a day if you and 
your partner shared the driving. And if taking a single sample required 
3 hours (this is the amount of time required to collect a depth 
profile of water samples at a depth of 1500m), it would take a very 
long time to characterize the entire state.
    This example provides insight to the situation faced by scientists 
attempting to characterize Gulf offshore environments in the wake of 
the DWH discharge. The sheer size of the open ocean area impacted by 
the DWH discharge and the fact that the ocean is extremely dynamic--the 
water moves and chemical signatures can change on time scales of 
minutes to hours--underscores the daunting challenge this incident 
posed to oceanographers. The spatial and temporal complexity of the 
arena and the presence of oil complicated collection of basic 
geochemical and biological data. Characterize the distribution of oil 
and gas, aiming to discover novel features, and quantify impacts, made 
this task Herculean. The regular sea-going gear we use to collect 
samples is not made for oily water; extraordinary effort was required 
to clean bottles, sensors, etc. between sample collections. And, 
choices had to made: one could characterize smaller areas at greater 
resolution or characterize larger areas at more coarse resolution--one 
could not do both on a short cruise.
    The infusion of oil and gas to the system meant that the biological 
system was rapidly evolving. This meant that time series data were 
critical, so that we could track the response of various parts of the 
system to perturbation. Though insufficient data of this type were 
collected for offshore water column and sediment habitats, the one 
published suite of time-series measurements made over a 10-month period 
(March-December 2010) underscores the clear importance of time-series 
data, as opposed to ``snap-shot'' sampling (i.e., a single week or two 
sampling campaign) (Crespo-Medina et al., 2014). An enormous amount of 
time and multiple ships conducting comparable operations would have 
been required to properly sample and characterize the entire area 
impacted by the discharge.
    Possessing prior system knowledge, i.e., experience working in the 
area and familiarity with the bathymetry of the seabed, was integral 
for our group's discovery of the deepwater plumes. We discovered the 
plumes because we had a good idea of the direction the deep currents 
was moving and we knew the bathymetry of the area because many of us 
had been involved in the only long-term Gulf benthic observatory (at 
Mississippi Canyon lease block 118) which lies to the N/NW of the 
Macondo wellhead, so had seabed maps of the area. In depth system 
knowledge provided us with instincts--and the willingness to trust our 
instincts--and this led to our discovery of the plumes (Diercks et al., 
2010, Joye et al., 2011). We shared the locations of the plumes with 
Federal responders and with other scientists, which led to additional 
discoveries (Camilli et al., 2010, Valentine et al., 2010, Kessler et 
al., 2011).
    To facilitate and improve the efficacy of future open-ocean oil 
spill response, a foundation of strong coordination, communication and 
trust is needed between academic responders and Federal incident 
command officials. Ideally, this foundation should be in place and 
vetted before the next incident occurs. As described in the testimony 
below, academic scientists have a great deal of expertise to offer the 
Federal responders and this expertise should be brought to bear 
immediately in future response scenarios. Furthermore, in hindsight, 
significant investments in infrastructure and technology and basic 
research are required to be prepared for the next deepwater discharge. 
Such bold moves will increase the ability of responders to identify the 
multitude of system-scale impacts and assure collection of the proper 
samples to quantify those impacts.
Environmental baselines are necessary and must be obtained.
    How do you quantify whether and to what extent something has 
changed (i.e., an impact) when you do not know the original condition 
(i.e., the baseline)? The answer is that it is difficult and it 
requires that you essentially make an educated guess as to what the 
original condition was. Environmental baselines are sorely lacking 
across the Gulf of Mexico ecosystem. Despite numerous Minerals 
Management Service (now the Bureau of Ocean and Energy Management) 
funded studies to describe Gulf physical oceanography (e.g., MMS 204-
022, ``Cross-shelf exchange processes and the deepwater circulation . . 
.) and deepsea chemosynthetic and hard bottom communities (e.g., MMS 
2009-046, ``Investigations of chemosynthetic communities on the lower 
continental slope . . .''; MMS 2009-039, ``Northern Gulf of Mexico 
Continental Slope Habitats and Benthic Ecology Study''; and MMS 2007-
004, ``Characterization of Northern Gulf of Mexico Deepwater hard-
bottom communities with emphasis on Lophelia coral''), the basic 
microbiology of the Gulf system and the ability of microorganisms to 
oxidize oil and gas were essentially unconstrained at the baseline 
level in 2010. There was no data available on water column oil 
degradation rates and very little available on water column methane 
oxidation rates (Wankel et al., 2010). Prior to the DWH, someone once 
described my work on oil and gas microbiology in the Gulf as esoteric. 
In the post-DWH world, that word would never be used because we now 
know that microbiological research is absolutely critical.
    Few long-term baseline data sets that include basic microbiology 
are available for the Gulf (Joye et al., 2014). The NOAA/National 
Institute for Undersea Science and Technology Mississippi Canyon block 
118 (MC118) Gas Hydrate Microbial Observatory and a NSF funded 5-year, 
though only 2 research cruises, Hypersaline Ecosystems Microbial 
Observatory programs are notable exceptions. The MC118 site is less 
than 20km from the site of the Macondo blowout and data from this 
program provided critical baseline data that was used to assess 
microbial community changes in the water column and sediments following 
the DWH incident (Crespo-Medina et al., 2014, Yang et al., 2014). 
Without such critical baseline data, it would have been impossible to 
quantify changes in pelagic microbial oil and gas degrading communities 
in response to the blowout. Still, other parts of the pelagic 
``microbial'' community such as phytoplankton and small zooplankton, 
are unknown because we do not know much about them in the first place. 
Thankfully, baseline data were available for some cold water coral 
communities and that has facilitated research aimed at quantifying 
Macondo-related impacts to those communities (White et al., 2012, 
Fisher et al., 2014a, 2014b).
    Environmental baselines are also lacking on the natural 
distributions of hydrocarbons and their geochemical ``fingerprint'' for 
the Gulf. Fingerprinting oil to a specific reservoir requires ultra-
clean sampling protocols in the field and sophisticated instrumentation 
in the laboratory. We need to know how the natural distribution of oil 
(dissolved hydrocarbons) and gas (methane) vary across the Gulf system 
and we need to be able to identify and isolate specific sources 
(reservoirs). We need to understand variability in concentration and 
fingerprint at the scale of an individual seep field, in a lease block, 
and between regions (e.g., Mississippi Canyon, Green Canyon, Alaminos 
Canyon, etc.). Furthermore, we must obtain basic information on oil and 
gas degradation rates in the environment, how they vary over space and 
time, and we have to know what constrains these activities. One cannot 
conclude that ``microbes ate all the oil'' based on the observation 
that oil is no longer measurable in a water sample; the fact is that 
the oil may have instead moved to another location (e.g., the seafloor) 
where you were not looking.
    Finally, to be prepared for the next incident, the research 
community needs well-validated models of deep circulation and the 
ability to deploy 10s-100s of robotic floats with the appropriate 
instruments (fluorometers) to detect oil. We have much better models of 
the Macondo area now (Goni et al., 2015) and of some of the unique 
physics that led to development of the deepwater plumes, for example 
(Zachary et al., 2015), but we need comparable models for the entire 
Gulf ecosystem. This is a goal that can be achieved, with proper 
research funding. In fact, one could argue that such floats with CDOM 
fluorometers should be deployed now, to start obtaining the desperately 
needed environmental baselines. The research community must push the 
envelope to develop other instruments specific to hydrocarbons that can 
be deployed on autonomous vehicles.
    This will permit characterization of large areas with minimal 
demands for ship time.
    Obtaining proper environmental baselines for the Gulf system is 
something that every environmental scientists conducting post Macondo 
research realizes. This necessary goal can be achieved as part of DOI/
BOEM's mission, since they are mandated to provide funding to support 
documentation of environmental baselines through the Environmental 
Studies Program. BOEM's budget for the ESP is a $35M a year and those 
funds must cover all areas impacted by oil and gas development. 
Obtaining proper baselines for the Gulf and elsewhere (e.g., The 
Arctic) will cost substantially more than $35M per year and I believe 
these cost could and should be shared by industry. Sufficient 
environmental baselines are in the best interest of the industry and 
the Trustees. Thus, I encourage Congress and the Administration to 
increase BOEM's funding and to give them increased authority to require 
industry to obtain baseline and ongoing (annual) environmental 
monitoring data at all locations impacted by oil and gas development. 
The requisite data collected, proper protocols, and sampling intervals 
should be determined by a Panel of Experts selected and convened by 
BOEM officials, potentially in collaboration with NOAA's Emergency 
Response Division. Industry should shoulder the costs of this 
monitoring program and the funds should be administered competitively 
by BOEM.
Knowing the flow rate is a critical to closing the ``oil budget''.
    Knowing the discharge rate is essential for selecting and employing 
the most appropriate method of intervention to seal a discharging well. 
Quantification of the discharge rate over time--and knowing and 
whether, and if so how much, it varies over time, is also essential for 
determining the total hydrocarbon discharge, a value of obvious 
importance in the NRDA process. I have heard many people say there was 
no technology available to quantify the flow rate when the Macondo 
blowout began. This statement simply is not true. Scientists had 
determined the flow rate of discharging vents in deepsea hydrothermal 
systems using particle imaging velocimetry (PIV, Westerweel 1993), 
optical plume velocimetry (OPV; Crone et al., 2008) or acoustic 
scintillation (Di Iorio et al., 2005, 2012) before the Macondo Blowout. 
The first evidence that the discharge rate was well above the stated 
rate of 1000 or 5000 barrels of oil per day (BOPD) came from satellite 
imagery: the satellite-derived estimate of 26,500 barrels a day was 
called the ``MacDonald Minimum'' by the New York Times (the number was 
generated by Prof. Ian MacDonald at Florida State University). The 
first estimate of the Macondo well discharge rate based on (very poor 
quality) digital video footage of the discharging wellhead was obtained 
by PIV and the value was 57,000 <plus-minus> 10,000 BOPD (Crone and 
Tolstoy 2010). It is noteworthy that release of this video footage 
required three congressional subpoenas. Later in the discharge, Camilli 
et al., (2011) reported a flow rate of 52,700 BOPD. There is no 
reasonable explanation for why the flow rate was not quantified early 
on and continuously. However, because it was not, we will never truly 
know how much oil was discharged from the Macondo wellhead. And not 
knowing the absolute discharge rate makes generating and closing the 
oil budget impossible.
    In the future, immediate and continuous assessment of the discharge 
rate should be an absolute requirement of the responsible party.
Patching other holes in the oil budget.
--Deepwater plumes and sedimented, weathered oil
    The discovery of deepwater plumes enriched in oil and gas was not 
an accident. The literature was rich with papers describing the 
formation of underwater oil-rich plumes in the event of a deepwater 
blowout and field experiments verified model results. On the first 
academic response cruise on board the R/V Pelican in early May 2010, 
Vernon Asper and Arne Diercks discovered the deepwater plumes (Diercks 
et al., 2010) and on the second academic response cruise, we 
characterized the chemistry and microbiology of those plumes in great 
detail (Joye et al., 2011, Crespo-Medina et al., 2014). How much of the 
discharged oil was in the deepwater plume? That value is not well 
constrained but the number that is most commonly stated is 30 percent. 
All of the discharged gas, namely methane, some 500,000 metric tonnes 
of it, was trapped within the deepwater plumes (Joye et al., 2011). 
Notably, discharged gas is not included in the ``oil budget''.
    A significant fraction, some 5 to 15 percent of the discharged oil, 
was deposited to the seafloor as ``marine `oil' snow'' (Chanton et al., 
2014, Valentine et al., 2014), covering an area of over 8,000 square 
kilometers. Our research team collected cores from many sites at 
various distances from the wellhead in May 2010. We re-sampled some of 
those areas in August 2010 and discovered layers of recently deposited 
oil-containing material that were absent in May 2010. These layers were 
observed many 10s of miles from the wellhead, showing that ``oil snow'' 
deposition was a widespread phenomenon. The freshly deposited layer 
exhibited a dark coloration; these cores smelled strongly of 
hydrocarbons and the water overlying the cores contained a visible 
rainbow sheen of oil. These cores were not from known hydrocarbon seep; 
this oil had not seeped into the sediments from below, it had rained 
down onto the sediments from above. The depth of the layer was up to 
several cm thick in some places; layers that thick would take hundreds 
of years to accumulate under natural sedimentation regimes. The 
animals, worms and such, living in the sediment had been suffocated. 
These cores were like nothing any of us had ever seen.
    We now know that this oil-containing material reached the seafloor 
through the mechanism of marine oil snow sedimentation, a process that 
was unrecognized and unappreciated prior to the DWH disaster. Marine 
oil snow forms by several different mechanisms, abiotically through 
oil-mineral aggregation, and biologically through the activity of 
bacteria and phytoplankton (Passow 2014, Joye et al., 2014). 
Environmental conditions determine which type of marine snow is most 
important for the transfer of oil to depth and the primary mode of oil 
snow formation can vary by location and time. Mobilization and 
redistribution of this sedimented, weathered presents a long-term, 
persistent impact of the oil on benthic ecosystems that are exposed, 
possibly multiple times, to oil components that sank to the seabed.
    Marine oil snow could also serve as an important food source for 
many planktonic species as well, making oil contaminated snow a 
mechanism to move oil into the food web. Macondo-derived hydrocarbons 
were found in floating particulate matter in the Gulf as far as 190 km 
southwest of the wellhead in 2010, and the ancient hydrocarbon isotopic 
signal persisted into 2011 and 2012. This particulate phase appears to 
have been ingested by zooplankton and it entered the food web. There is 
also evidence consistent with the hypothesis that Macondo hydrocarbons 
entered the food web of coastal organisms to the north of the spill 
site.
    Sedimentation of oil was not included in the original Federal oil 
budget. We now know that the formation of marine oil snow particles is 
an important fate of oil. This fate must be considered in future 
response plans and its importance quantified, through direct 
measurements of sedimentation and trophic transfer, relative to other 
potential fates and impacts of oil.
--The failure to constrain rates of microbial oil degradation
    Despite the fact that oil was present in the deepwater plume and on 
the sea surface, no actual rates of oil degradation were carried out. 
By ``actual rates'' I mean that oil degradation rates were not 
determined using highly sensitive radiotracer techniques. The one 
degradation rate that was published was from a lab bottle experiment 
and it represented a potential rate of one group of compounds, alkanes 
(Hazen et al., 2010). The ``turnover constant'' for this one, very 
labile, group of compounds, the alkanes, was then applied to all the 
various components of oil, from benzene to polycyclic aromatic 
hydrocarbons, by some other scientists and the media, leading to the 
highly inappropriate conclusion that microorganisms magically degraded 
the Macondo ``oil'' on a 10 day time scale. Another journal in Science 
(Camilli et al., 2010) published much slower oil degradation rate, but 
that value was largely overlooked.
    There is no evidence that `magic microbes' consumed all the Macondo 
oil. The reasons why we do not how much of the Macondo oil the microbes 
did, in fact, consume are as follows: The reasons microbial degradation 
rates were not determined include: (1) making these rate measurements 
is extremely difficult and time-consuming, (2) the radiotracers are 
very expensive, and (3) the measurements requires specialized shipboard 
accommodations (e.g., radioisotope-usage isolation vans). The 
scientific community is better prepared now to make these 
measurements--robust methods are now available--but the bottleneck may 
be expertise as few people make these laborious measurements.
    In contrast to oil, methane consumption rates were well constrained 
and it is clear that microbial processes were unable to completely 
consume the methane discharged from the Macondo wellhead (Crespo-Medina 
et al., 2014). Though there remains some debate about the fate of 
methane (e.g., Kessler et al., 2011 and Crespo-Medina et al., 2014), 
the differing conclusions are largely a function of the timing of 
sampling and the time-scale sampled (the former lacked samples from 
early in the discharge when activity was maximal while the latter 
presented a comprehensive data set representing a 10-month time 
series).
    Because no direct measurements of oil (component) degradation rate 
exist, we are left to make assumptions about the potential for the 
microbial community to degrade oil and that results in very large error 
bars and an unconstrained oil budget. The Federal oil budget released 
in August 2010 stipulated that approximately 50 percent of the 
discharged oil was not accounted for in a quantitative sense. Some 
fraction of this now lies along the seabed. Another portion was 
certainly consumed by microbial processes. However, we cannot know, in 
an absolute sense, how much of this oil remains in the system in some 
(weathered) form or where this oil ended up.
    In the future, we must constrain the quantity and fate of oil and 
gas in deepwater plumes; we must constrain the formation and fate 
(sedimentation vs. trophic transfer) of marine oil snow; and, we must 
quantify rates of oxidation of model oil compounds, e.g., hexadecane as 
a model alkane, naphthalene as a model PAH, etc.
Dispersants
    Chemical dispersants break down surface oil slicks, creating a 
spectrum of sizes of dissolved oil particles. The general principle 
behind application of dispersants is that they reduce the amount of oil 
that reaches the shoreline and that they increase rates of microbial 
oil degradation by increasing the available surface area of oil that is 
subject to microbial attack. Importantly, these chemicals are also 
assumed to be inert, doing no harm to the environment.
    The decision to apply dispersants during the DWH response was not 
taken lightly and ultimately, I believe it came down to minimizing 
coastal impacts with a true belief that offshore impacts of dispersants 
would be minimal. As it turns out, the evidence that dispersants 
increase oil biodegradation rates is contradictory (Kleindienst et al., 
2015). There is no scientific consensus that chemical dispersants 
increase rates of microbial oil degradation. In fact, since the DWH 
incident many papers have been published documenting that dispersed 
oil, and in some cases dispersant alone, are more toxic and harmful 
than oil alone. Negative impacts of dispersants have been documented in 
marine phytoplankton (Ozhan and Bargu 2014), ciliates (Ortmann et al., 
2012, Almeda et al. 2014), rotifers (Rico-Martinez et al., 2013), fish 
(Ramachandran et al., 2014, Brette et al., 2014), corals (DeLeo et al., 
2015) and coral larvae (Goodbody-Gringley et al., 2012).
    Clearly, the assumption that dispersants are inert and impart no 
negative ecosystem consequences was wrong. Much more research is 
required to quantify the impacts of dispersants and dispersed oil on 
the biological components of the Gulf system before they are again used 
as a primary mode of oil spill response. Notably, today, blowout 
preventors are being instrumented with automated dispersant 
applicators. Available science suggests this is a bad idea and argues 
that this practice should be halted until either a truly biologically 
inert dispersant is developed or concrete evidence is produced to 
contradict and invalidate the available work that underscores the 
inherent negative impacts of dispersant/dispersed oil exposure.
Long term Impacts of the Deepwater Horizon Disaster
Damage to deepwater ecosystems
    Deepwater benthic ecosystems, including cold-water corals (White et 
al., 2012, Fisher et al., 2014a, 2014b) and benthic invertebrates 
(Montagna et al., 2013) were significantly impacted by weathered oil 
sedimentation. Cold water coral ecosystems are critical benthic 
habitats in the Gulf of Mexico and elsewhere. Few people realize that 
only half of the world's coral reefs lie within the photic zone; the 
other half lies in deeper, dark water. These deep, cold-water coral 
environments provide fishery habitat as well as other ecosystem 
services. Corals, and octocorals in particular, are excellent sentinels 
for anthropogenic impact in the deep sea: They sample the surrounding 
water, normally live for 100s to 1000s of years, and when impacted, 
their dead branches or skeletons remain attached to the sea floor 
providing a record of impact that can last for up to a decade. Exposure 
to dispersants and dispersed oil made a bad thing worse, at least for 
the corals (DeLeo et al., 2015).
    Cold water corals are slow growing animals; since they grow at a 
rate of around 1 cm per year, a meter tall coral is 100 years old. 
Several coral ecosystems in the vicinity of Macondo were severally 
impacted from the Macondo blowout. The most serious impacts with within 
about 11 km of the spill site, but corals over twice that distance away 
and at much deeper depth (to 1900m) were also visibly impacted 
resulting in dying branches on these normally very long lived corals. 
Full recovery will not happen in our lifetimes.
    The injuries to corals were not confined to the nearby deep sea 
communities. The mesophotic corals were also injured in large numbers 
on the shelf. Prof. Ian MacDonald's group at Florida State documented 
400 injured coral colonies at two sites, but this represents a small 
fraction of the total coral habitat known to exist on the shelf under 
the area covered by surface oil and under the airborne dispersant 
flight lines.
    Resuspension and remobilization of sedimented oil could generate 
multiple and new exposures to both corals and invertebrate communities, 
prolonging Macondo's impact on vital deepwater habitats.
    Benthic invertebrates may be considered ``worms in the mud'' but 
these animals provide important services to their environment: their 
movement, whether it be burrowing or simply trudging along the surface, 
serves to mix and oxygenate sediment, increasing oxygen penetration 
into sediments and allowing the microorganisms in the sediments to 
mineralize more organic carbon. Thus, benthic invertebrates can affect 
the rate of sediment organic matter turnover, which also serves to 
remineralize nutrients. These sedimentary processes are inherently 
linked to processes in the surface ocean: Remineralized nutrients from 
the deep are ultimately returned to the surface ocean where they 
support primary production. Primary production in surface waters fuels 
the food web but also supports a natural particle flux to the benthos. 
This delicate balance between nutrient supply to the surface ocean from 
the deep seafloor and return flux of some fraction to the deep through 
natural sedimentation was turned on its head by the massive 
sedimentation event following the Macondo blowout. This benthic-to-
surface connection is poorly constrained at baseline levels and we need 
more data to constrain the magnitude of this perturbation.
    Benthic invertebrate communities, especially within a 5-10 mile 
radius of the wellhead, were wiped out. How long it will take them to 
recover is unknown. Likewise, damaged coral communities have been 
documented 10s of miles from the wellhead. These communities are still 
showing impact and though we know it will require 100s of years for the 
most damaged coral communities to recover, we are still documenting 
impacts that were not documented in 2012 and it is likely that the true 
magnitude of the deepsea impact may never be fully appreciated.
    Notably, there is no set-back distance that would have prevented 
these catastrophic impacts. The regulations in place still allow 
drilling and production to occur far too close (500m) to sensitive 
communities. I encourage Congress and the Administrative to review 
these set-back distances and to increase them to minimize damage to 
sensitive chemosynthetic communities. The deep sea is very poorly 
surveyed and its fauna are very poorly known. As noted previously, 
baseline studies of the distribution and status of deepwater 
communities near oil and gas development sites, even if this is video 
surveys run by the industry, need to be reviewed by BOEM/BSEE and 
trained scientists. We need to better understand the baseline 
conditions in the deep sea to better understand where the more unique 
communities are found in the sea of mud that is most of the deep sea 
floor. More in depth knowledge of the biodiversity and population 
connectivity of the deepsea fauna is needed to understand the effects 
of the next disaster or cumulative impacts of anthropogenic impacts on 
the oceans.
Microbial community shifts
    The massive infusion of hydrocarbons to the Gulf system in the 
Macondo area resulted in a rapid shift in hydrocarbon-degrading 
microbial community composition that, in some places, remains 
detectable today (Yang et al., 2014). Whether the present microbial 
hydrocarbon degrading community is providing the same ecosystem 
services or maintaining their previous levels of activity is unknown. 
Assessment of time-series changes in phytoplankton, zooplankton and 
meso-pelagic organisms is lacking, so it is unclear whether their 
populations were impacted similarly. However, given the variable 
ability of some organisms to tolerate oil exposure, shifts in community 
composition are likely. The long-term impacts of such shifts and the 
time required for the base of the food web to achieve a new steady 
state is unknown.
Moving Forward
    During the DWH response, it became clear that the research 
community lacked sufficient resources in the form of manned 
submersibles, ROVs, and AUVs to adequately and rapidly respond. 
Germany, France, Russia, Japan and China have invested much more vested 
in deep-sea technology than the U.S. has in the past twenty years and 
it shows. Deep-sea assets and technology development and instrument 
acquisition are necessary to support basic scientific exploration and 
discovery. These tools are also absolutely essential to track, 
quantify, map, and verify open ocean water column and benthic impacts 
of incidents like the Macondo blowout. Training and instrumenting an 
academic task force to aid in response to offshore blowouts and other 
natural disasters is a worthy investment. I encourage Congress and the 
Administration to increase BOEM's funding and scope of work to 
facilitate and improve future response efforts.
    Thank you for the opportunity to testify today. I would be happy to 
answer any questions that you have.
References Cited
    Almeda, R., C. Hyatt, and E.J. Buskey. Toxicity of dispersant 
Corexit 9500A and crude oil to marine microzooplankton. Ecotoxicol. 
Environ. Saf. 106: 76-85.

    Brette, F., B. Machado, C. Cros, J.P. Incardona, N.L. Scholz, and 
B.A. Block, 2014. Crude oil impairs cardiac excitation-contraction 
coupling in fish. Science. F

    Camilli, R., C.M. Reddy, D.R. Yoerger, B.A.S. Van Mooy, M.V. 
Jakuba, J.C. Kinsey, C.P. McIntyre, S.P. Sylva, and J.V. Maloney, 2010. 
Tracking hydrocarbon plume transport and biodegradation at Deepwater 
Horizon. Science 330: 201-204.

    Camilli, R. D. Di Iorio, A. Bowen, C.M. Reddy, A.H. Techet, D.R. 
Yoerger, L.L. Whitcomb, J.S. Seawald, S.P. Sylva, and J. Fenwick, 2011. 
Acoustic measurement of the Deepwater Horizon Macondo well flow rate. 
Proc. Nation. Acad. Sci. 109(50): 2023520239.

    Chanton, J.P., T. Zhao, B. Rosenheim, S.B. Joye, S. Bosman, C. 
Brunner, K. Yeager, and D. Hollander, 2014. Radiocarbon tracing of the 
flux of petrocarbon to the sea floor associated with the Deepwater 
Horizon event. Environmental Science and Technology, DOI: 10.1012/
es5046524.

    Crespo-Medina, M., C.D. Meile, K.S. Hunter, V.J. Orphan, P. 
Tavormina, L.M. Nigro, J.J. Battles, A.R. Diercks, V. Asper, J.P. 
Chanton, A.M Shiller, D.J. Joung, J. Montoya, T. Villareal, M. Wood, R. 
Amon, and S.B. Joye, 2014. The rise and fall of methanotrophy following 
a deepwater oil-well blowout. Nature Geoscience, 7:423-427.

    Crone, T. J., R.E. McDuff, and W.S.D. Wilcock. 2008. Optical plume 
velocimetry: a new flow measurement technique for use in seafloor 
hydrothermal systems. Experiments in Fluids, Nov, Volume 45, Issue 5, 
p.899-915, DOI 10.1007/s00348-008-0508-2.

    Crone, T. J. and M. Tolstoy, 2010. Magnitude of the 2010 Gulf of 
Mexico Oil Leak. Science, 330, 634, doi:10.1126/science.1195840.

    DeLeo, D.M., D.V. Ruiz-Ramos, I.B. Baums, and E.E. Cordes, 2015. 
Response of deep-water corals to oil and chemical dispersant exposure. 
Deep Sea Research II, doi: 10.1016/j.dsr2.2015.02.028.

    Diercks, A.R., R.C. Highsmith, V.L. Asper, D. Joung, L. Guo, Z. 
Zhou, A.M. Shiller, S.B. Joye, A.P. Teske, and S.E. Lohrenz, 2010. 
Characterization of subsurface polycyclic aromatic hydrocarbons at the 
Deepwater Horizon site. Geophysical Research Letters, 37, L20602, 
doi:10.1029/2010GL045046.

    D. Di Iorio, D. Lemon, and R. Chave, 2005. A Self-Contained 
Acoustic Scintillation Instrument for Path-Averaged Measurements of 
Flow and Turbulence with Application to Hydrothermal Vent and Bottom 
Boundary Layer Dynamics. J. Atmos. Oceanic Technol., 22, 1602-1617. 
doi: http://dx.doi.org/10.1175/JTECH1799.1

    Di Iorio D., J. Lavelle, P. Rona, K. Bemis, G. Xu, L. Germanovich, 
R. Lowell R, and G. Genc, 2012. Measurements and Models of Heat Flux 
and Plumes from Hydrothermal Discharges Near the Deep Seafloor. 
Oceanography. 25(1):168-179.

    Fisher, C.R., A.W.J. Demopoulos, E.E. Cordes, I.B. Baums, H.K. 
White and J.R. Bourque. 2014a. Coral communities as indicators of 
ecosystem-level impacts of the Deepwater Horizon Spill. Bioscience, 
64(9): 796-807.

    Fisher, C.R., P-Y. Hsing, et al., 2014b. Footprint of the Deepwtaer 
Horizon blowout impact to deep-water coral communities. Proc. Nat. 
Acad. Sci. 111(32): 11744-11749.

    Goni, G. J., J. A. Trinanes, A. MacFadyen, D. Streett, M. J. 
Olascoaga, M. L. Imhoff, F. Muller-Karger, and M. A. Roffer (2015). 
Variability of the Deepwater Horizon Surface Oil Spill Extent and its 
Relationship to Varying Ocean Currents and Extreme Weather Conditions. 
Mathematical Modelling and Numerical Simulation of Oil Pollution 
Problems, Springer, 2, 1-22.

    Goodbody-Gringley, G., D.L. Wetzel, D. Gillon, E. Pulster, A. 
Miller, and K.B. Ritchie. Toxicity of Deepwater Horizon source oil and 
the chemical dispersant, Corexit 9500, to coral larvae. PLoSONE, DOI: 
10.1371/journal.pone.0045574.

    Hazen, T., et al., 2010. Deep-Sea Oil Plume Enriches Indigenous 
Oil-Degrading Bacteria. Science, 330: 204-208.

    Joye, S.B., I.R. MacDonald, I. Leifer, and V. Asper, 2011. 
Magnitude and oxidation potential of hydrocarbon gases released from 
the BP blowout. Nature Geoscience, 4: 160164 (doi:10.1038/ngeo1067).

    Joye, S.B., A.P. Teske, and J.E. Kostka, 2014. Microbial dynamics 
following the Macondo Oil Well Blowout across Gulf of Mexico 
environments. BioScience, 64 (9): 766-777, DOI: 10.1093/biosci/biu121.

    Kessler, J. D., D.L.Valentine, et al., 2011. A persistent oxygen 
anomaly reveals the fate of spilled methane in the deep Gulf of Mexico. 
Science, 331: 312-315.

    Kleindienst, S.K, J.H. Paul and S.B. Joye, 2015. Assessing the 
impacts of chemical dispersants on microbial community composition and 
activity. Nature Reviews Microbiology, in press.

    Montagna, P.A., J.G. Baguley, et al., 2013, Deep-Sea Benthic 
Footprint of the Deepwater Horizon Blowout. PLoS ONE, DOI: 10.1371/
journal.pone.0070540.

    Ortmann, A.C., J. Anders, N. Shelton, L. Gong, A.G. Moss, and R.H. 
Condon, 2012. Dispersed oil disrupts microbial pathways in pelagic food 
webs. PLoS ONE, DOI: 10.1371/journal.pone.0042548.

    Ozhan and Bargu, 2014. Distinct responses of Gulf of Mexico 
phytoplankton communities to crude oil and the dispersant Corexit 
9500A under different nutrient regiemes. Ecotoxicology, 23(3): 370-
384.

    Ramachandran, S.D., P.V. Hodson, C.W. Khan, and K. Lee, 2014. Oil 
dispersant increases PAH uptake by fish exposed to crude oil. Environ. 
Toxicol. Chem. 33(1): 107-114.

    Rico-Martinez, R., T.W. Snell, and T.L. Shearer, 2012. Synergistic 
toxicity of Macondo crude oil and dispersant Corexit 9500A to the 
Brachionus plicatilis species complex (Rotifera). Environmental 
Pollution, 174: 5-10.

    Valentine, D.L., J.D. Kessler, M.C. Redmond, S.D. Mendes, M.B. 
Heintz, C. Farwell, L. Hu, F.S. Kinnaman, S. Yvon-Lewis, M. Du, E.W. 
Chan, F. G. Tigreros, and C.J. Villanueva. Propane Respiration Jump-
Starts Microbial Response to a Deep Oil Spill. Science 330: 208-211.

    Valentine, D.L., G.B. Fisher, S.C. Bagby, R.K. Nelson, C.M. Reddy, 
S.P. Sylva and M.A.Woo, 2014. Fallout plume of submerged oil from 
Deepwater Horizon. Proc. Nat. Acad. Sci. 111(45): 15906-15911.

    Yang, T., L. Nigro, T. Gutierrez, S.B. Joye, and A.P. Teske, 2014. 
Bacterial community signatures of the Deepwater Horizon Oil spill 
reflect inherent metabolic potential and rapid physiological 
adaptability. Deep Sea Res. doi: 10.1016/j.dsr2.2014.01.014.

    Wankel, S.D., S. B. Joye, V.A. Samarkin, S. Shah, G. Friderich, J. 
Melas-Kryiazi, and P.R. Girguis, 2010. New constraints on diffusive 
methane fluxes and rates of anaerobic methane oxidation in a Gulf of 
Mexico brine pool through the use of a deep sea in situ mass 
spectrometer. Deep Sea Research, doi:10.1016/j.dsr2.2010.05.009.

    Westerweel, J., 1993. Digital Particle Image Velocimetry--Theory 
and Application. Delft University Press. ISBN 90-6275-881-9.

    White, H.K., et al., 2012. Impact of the Deepwater Horizon oil 
spill on a deep-water coral community in the Gulf of Mexico. Proc. Nat. 
Acad. Sci. 109(50): 20303-20308.

    Zachary M. Aman, Claire B. Paris, Eric F. May, Michael L. Johns, 
David LindoAtichati, 2015. High-pressure visual experimental studies of 
oil-in-water dispersion droplet size. Chemical Engineering Science, 
DOI: 10.1016/j.ces.2015.01.058.

    The Chairman. Thank you, Dr. Joye. I want to turn now to 
our distinguished Ranking Member of the Committee, Senator 
Nelson from Florida, who I know has a keen interest in this 
subject.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, it is just as well that my 
opening statement, which will be very short, is after the 
witnesses. This matter is very personal to me. Those of us on 
the Gulf lived through this.
    We were first told that it was maybe 1,000 barrels a day, 
and over the course of time, what we found is it was upwards in 
excess of 50,000 barrels a day, a total spill over the course 
of 89 days that was a mind blowing just under five million 
barrels of oil, and the specific figure that Judge Barbier in 
the Federal Court in New Orleans has come up with is right at 
four million.
    That is a lot of oil. The consequences were obvious. Some 
of you have pointed them out. In a state like mine, we lost an 
entire tourist season, not because there was oil on the beach, 
as there was on Pensacola Beach, and some tar balls got as far 
east as Panama City Beach, but because people thought there was 
oil on the beach, and they did not come to the Gulf Coast, all 
the way down to the southern tip of Florida, Marco Island.
    In addition, almost 40 percent of the Gulf was closed to 
fishing, and all the livelihood that occurred from there.
    About a year into this, I went to LSU and I talked to a 
couple of professors that were doing an investigation comparing 
what was happening in Barataria Bay with other bays that had 
not had the oil. The little fish that is about that big 
[indicating] called the ``killifish,'' they found a lot of 
changes. They found mutations in the lungs. They found 
reproduction was down. They found stunted growth, et cetera, 
compared to those killifish in other bays.
    We know there is an obvious effect. That is in part why we 
set up the money that is eventually going to flow from the 
RESTORE Act in the Trust Fund.
    That is why we set up these centers of excellence in each 
of the states, and specifically for Florida, a real research 
organization, and it is the Florida Institute of Oceanography, 
a 21 university consortium located at University of South 
Florida, that will continue to do research on the health of the 
Gulf, which we do not know, as you all have suggested in your 
testimony, we do not know the effect, and we do not know how 
much oil is down there at 5,000 feet still below, and what are 
the long term effects. We saw in the food chain up from the 
killifish effects upon the higher food chain creatures.
    There is a lot to know. I will be filing some legislation 
tomorrow that I will announce later that would ensure that NOAA 
and the Coast Guard have the tools to prepare and respond for 
the next marine oil spill.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Nelson. I guess we can 
start on questions. I know we have an event coming up before 
too long over in the House chambers, a joint session. A lot of 
people will probably be departing for that.
    I will just ask a couple of quick questions and then I will 
turn it over to people here who may want to drill down a little 
further.
    This would just be for the entire panel. That has to do 
with kind of the lessons learned from all this, and what has 
been the most important improvement in safety or response 
technology in the 5-years since Deepwater Horizon.
    Mr. Williams. I will talk about what we are doing at the 
Center for Offshore Safety and SEMS. I think even though a lot 
of companies have good programs, we have really changed, we 
have come together, worked together, developed better systems 
for sharing learning in improving this, and it is really a key 
tool because it balances between focusing on protecting the 
individuals and protecting yourself from major incidents, and 
it gets that balance right.
    I think that is what they talked about when they talked 
about safety culture in the Presidential Commission report.
    The SEMS processes embed safety into every phase of 
learning, managing change, developing skills and knowledge, it 
is embedded into your whole work process. It continuously looks 
at assuring and measuring that you have built barriers and have 
those barriers in place.
    I think building a place to learn, improve, and make that 
continuously better and maintain a continuous focus on that and 
get the balance right is one of the important additions.
    The Chairman. Anybody else?
    Dr. Kinner. Yes, I would like to address that, Senator. I 
think probably the seminal impact has been the influx of 
research dollars into oil spill R&D. Really, prior to the 
spill, the amount of money that went in both on the Federal 
side and on the industry side, et cetera, was really relatively 
low, and this effort through GoMRI, the National Academy, 
through industry, and to a lesser extent through the Federal 
Government, has really focused on some key questions.
    I think the real issue is moving beyond figuring out what 
is going on in the Gulf, to figuring out how to do response 
better, and response in areas other than Gulf oil spills.
    As you know, every day we see in the news spills of trains, 
spills with pipelines, potentially developing in the Arctic. 
There are some major, major impacts that could occur from those 
spills that we are really not addressing as well.
    I would hope that we would see that research percolate into 
these other key areas.
    The Chairman. Dr. Reddy?
    Dr. Reddy. Thank you. My thoughts about response are it is 
a lot better than it used to be, and in part because after the 
Exxon Valdez spill, which was 13 million gallons of oil, we had 
only one million gallons of oil released in 1991. Business was 
incredibly good. In fact, the track record of oil spills was 
much, much better.
    The oil spills were not from tankers but actually from 
ships carrying oil, like the Cosco Busan oil spill in 2007.
    My biggest concern and perhaps the lesson learned is that 
there is a continued interest in understanding effects and 
damages of spills, and not putting enough input, as my 
colleagues have said, into response.
    For all practice purposes, we are training the next 
generation of home insurance adjustors on how to do a better 
adjustment about a house that just burned down instead of 
training firefighters to stop the fire from being one story to 
a complete catastrophe.
    If I could say one thing, the response has to get more 
attention because that is where the action is. That is where 
limiting damages is.
    I originally would say we should double down on our 
response but I am pretty sure we should be all in. Thank you.
    The Chairman. Thank you. Dr. Joye?
    Dr. Joye. I echo Dr. Reddy's sentiment on the value of 
response, but in terms of lessons learned, I think there were 
potentially three really critical lessons that we learned from 
the Deepwater Horizon moving forward, and they have to do with 
the Federal oil budget.
    One is the absolute essential nature of determining the 
flow rate properly from day one, not 2 months after the spill--
the discharge has become. The fact that the flow rate was not 
properly determined until almost 2 months into the event means 
we will never know how much oil was discharged from that well, 
which means making the oil budget and closing the oil budget 
essentially impossible. Techniques are available to do that and 
it should be done.
    The second thing is if you look at the Federal oil budget, 
that little pie chart, there is a big part of the pie that is 
missing, and Dr. Reddy referred to that. That is oil sediment 
to the sea bottom, and the range of that is from two to 16 
percent, and we do not know where in that 2 to 16 percent the 
actual number is. That is upwards of 10 million, it is a huge 
fraction of the discharge.
    We know the mechanism now by which that oil got from the 
surface to the bottom, it is biological processes for the most 
part, and that needs to be included in the oil budget and it 
needs to be quantified during the next response.
    Finally, the deepwater plumes. We do not really know how 
much of the discharged oil was in the deepwater plumes. It 
could have been 30 percent. I think that is a good number. That 
is a number that I use. What happened to all that oil. The only 
way you could have constrained that is if you were actually 
tracking the fate of that material continuously, and it was 
not.
    One of the biggest holes in the oil budget is you have all 
this oil that you cannot really quantify. Nobody was measuring 
rates of oil by degradation. Why is that? Because it is really 
hard to do. It is painful, it is excruciating, it is expensive, 
it is time consuming, it is laborious, your graduate students 
hate you for making them do it. It is absolutely necessary.
    Back in 2010, we were doing it in my group at a very 
minimum level because of the expense, and now we do it 
extensively because of the urgency, and the fact that we need 
to know what these baselines are.
    Those sorts of things have to be factored into the next 
response because otherwise we are never going to be able to 
close the oil budget and understand what happened to all the 
oil that was discharged from the next well that blows up.
    The Chairman. Thank you, Dr. Joye. I am going to turn now 
to Senator Nelson, followed by his colleague from Florida, 
Senator Rubio.
    Senator Nelson. Are you talking about the oil that was 
floating on the surface?
    Dr. Joye. I am talking about both the oil that was floating 
on the surface----
    Senator Nelson. No, the plumes.
    Dr. Joye. The deepwater plumes, I think we did a pretty 
good job of measuring methane degradation. In terms of oil by 
degradation, there are only two estimates. One was by Terry 
Hazen, and that was in a flask experiment done in the lab, and 
one was done by Rich Carmilli and Dr. Reddy here looking at 
oxygen depletion.
    The two numbers of oil degradation that they get are vastly 
different. One was very fast and one was very slow. Those are 
the two numbers and neither of them were direct measurements 
using tracers.
    Senator Nelson. You are talking about the oil that was 
floating on the top?
    Dr. Joye. All of it. We did not measure microbial 
degradation of any of the oil properly.
    Senator Nelson. Were we not lucky that the loop current did 
not catch the oil and take it south and around the Florida Keys 
and up the southeast coast of Florida?
    Dr. Joye. Very lucky.
    Senator Nelson. Where the Gulf Stream is right at the 
coast.
    Dr. Joye. We were very lucky.
    Senator Nelson. We were. Tell us, Dr. Joye, about your 
study regarding the subsea oil sediment blizzard.
    Dr. Joye. Dr. Reddy has published on this as well. One of 
our original hypotheses was that there would be sedimentation 
of oil due to bacterial processes. The bacteria that degrade 
oil are renown for their ability to excrete mucous, really 
sticky, heavy, exopolymers, that help them essentially emulsify 
the oil and make it more bioavailable.
    The unfortunate side of that is this stuff is sticky, and 
sediment particles, other organisms, it sticks to that material 
and makes it sink. It sinks like a stone, hundreds of meters 
per day. This material can get from the top to the bottom 
within a week, and it contains residual weathered oil.
    We first found these deposits in August 2010 near the 
wellhead. They were as thick as five to 10 centimeters, as you 
go away from the wellhead, they thinned out, but these deposits 
were essentially everywhere that we looked. We have been 
tracking them for the past 5 years. In many places, if you put 
them side by side from 2010 to 2015, you would not be able to 
tell which were collected in 2015 or in 2010 because they are 
not going away.
    Senator Nelson. How far out from the wellhead did you find 
that?
    Dr. Joye. Our most far field sample, I believe, was around 
70 kilometers or so from the wellhead. Again, it is a huge 
area. One of the issues is you cannot possibly sample the 
entire area. It is so heterogeneous, as Dr. Reddy said, we are 
never going to know how much oil is on the sea bed, because 
there is just no way to physically sample it properly.
    Senator Nelson. As we are researching in the future to try 
to determine the health of the Gulf as a result of this four to 
five million barrels of oil spill, what are we going to look 
for other than the obvious, the food chain, the critters? What 
are we going to look for?
    Dr. Joye. The benthic impacts of sediments of oil are 
multiple. One is cold water corrals, for example, that were 
essentially wiped out because of oil sedimentation. Benthic 
invertebrates were wiped out in areas of high oil 
sedimentation.
    The things you can look for in terms of long term impact, 
this material is not just sitting on the bottom, it is getting 
immobilized, it is getting re-suspended, and it is moving 
around, and it still contains a significant level of polycyclic 
aromatic hydrocarbons which are toxic.
    The movement of this material could perpetuate its impact 
on benthic ecosystems. There are many bottom dwelling fish and 
organisms that live in the Gulf of Mexico. Anything that relies 
on the bottom as a food source or habitat could be potentially 
damaged by this material.
    Dr. Kinner. Senator Nelson, might I follow up on that?
    Senator Nelson. Please.
    Dr. Kinner. I think one thing that we would credit the 
great state of Florida for is that some of this work was 
pioneered by researchers in Florida. Dave Hollander, for 
example, at University of South Florida.
    The key question of what these scientists have found is how 
would we use that information in a future response, either in 
the Gulf or for Senator Sullivan in the state of Alaska.
    If you have another spill, what does this sedimentation 
process mean. I think the question here is if we have oil in 
either the surface water or deep down and you have some kind of 
particulates, for instance, in Cook Inlet, if you have a lot of 
sediment in the water, or if you have this biological 
phenomenon in the Gulf during the spring, you are going to 
bring potentially a certain amount of that oil down to the 
bottom.
    That is something that responders need to think about and 
factor in when they think about the tradeoff's in response. I 
think that is a great example of how research can impact the 
response we do in the future and the tradeoff's responders have 
to make and factor in.
    That is where this scientific collaboration really would 
work. Another great example that both Dr. Reddy and Dr. Joye 
brought up is this question of flow rate. If we had a 
scientific network that responders could talk with scientists 
beforehand and say here is the situation we are worrying about, 
a blow out scenario, we could get scientists thinking ahead of 
time and say how would you measure the flow rate, and a 
dialogue would ensue, and I think we would have realized much 
more quickly that was a lack of what we knew in response.
    Those are just a couple of examples, Senator.
    Senator Nelson. I will just say in closing that we had to 
raise cain to get the pictures 5,000 feet below. Once we got 
that streaming video, and we actually put it up on my website, 
then you scientists could look and start making calculations. 
Whoa, this is a lot more than what was originally thought.
    I will just say in closing that we had the Coast Guard 
Commandant here in the last couple of days. There are a lot of 
lessons learned about how to handle an emergency. I personally 
think it has to be a military command structure with a clear 
line of authority, since you have emergency conditions that are 
happening every day. It is a war zone out there.
    I think there were quite a few mistakes made in that 
regard. Thank you.
    Senator Rubio [presiding]. Senator Peters?

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Senator Rubio. Thank you to the 
panelists for the discussion here today.
    We are looking at the fifth year anniversary of the oil 
disaster in the Gulf, but this could also be, this coming July, 
the fifth anniversary of another major spill disaster that 
occurred in my home state of Michigan, where we had a six foot 
break in a pipeline that resulted in over a million gallons of 
heavy crude oil, which overwhelmed the Kalamazoo River, that 
has been the most expensive pipeline break on shore in the 
history of this country, well over $1 billion has been spent in 
clean up. They are still working aggressively to complete that 
project.
    One of the most troubling aspects of the disaster is it 
took 18 hours before a utility employee reported the spill and 
the pipeline company learned of the spill into the waters.
    Unfortunately, as I am sure all of you will agree, failures 
in pipeline oversight have become the norm, not the exception. 
Last week, in fact, there was an article here locally in 
Politico that showed the gaping holes that we have in pipeline 
safety regulations.
    We had the Commandant, as Senator Nelson mentioned, of the 
Coast Guard here earlier. I asked him specific questions about 
an issue that I am particularly concerned about, and that is 
pipelines that we have in the Great Lakes, particularly after 
the pipeline break we had in the Kalamazoo River.
    It would be absolutely catastrophic to have a pipeline 
break in the Great Lakes. We currently have a pipeline that 
goes through the Straits of Mackinac, a little over five miles 
of beautiful Lake Michigan and Lake Huron water. It is a 
pipeline that is nearly 60 years old. It is operated by the 
same company that had the pipeline break that has resulted in a 
major disaster on our shore, and there are other pipelines.
    Dr. Kinner, I appreciated your earlier comments that we 
need to be looking at these other areas. I would argue that the 
Great Lakes is particularly troublesome given the fact of not 
only the recreation and other activities but we have tens of 
millions of people who drink the water of the Great Lakes. This 
is a depository of most of the world's fresh water.
    If you would comment on a spill in the Great Lakes, Dr. 
Kinner, Dr. Reddy, Dr. Joye. The Commandant from the Coast 
Guard mentioned that if we had a spill in the Great Lakes, it 
would be even more problematic because some of the microbes 
that exist in the ocean do not exist in fresh water. He also 
needed to review some of the response plans which he was not 
able to comment on at least immediately, although I am sure 
they have some.
    If you could comment as to how comfortable you feel having 
pipelines in one of the largest bodies of fresh water in the 
world, and what are some of the unique challenges we may face 
in the Great Lakes, and what are things we need to be thinking 
about particularly as we look for reauthorization of PHMSA and 
other legislation in the future. I will start with you, Dr. 
Kinner.
    Dr. Kinner. Thank you very much, Senator. The key 
difference that I see, and there are response plans certainly 
for that region--the key difference that I see is one of the 
tools right now would be out of the toolbox of response, and 
that is dispersants, because dispersants are not really 
functional in fresh water. That tool, which was quite valuable 
and obviously has some utility in the Gulf, is not available.
    There is research being done to work on that, but that 
would make it very, very difficult if you had high wind and 
wave conditions, for example, and we know the Great Lakes can 
be very, very dangerous, that would be very difficult to 
recover that oil, and it could be quite problematic.
    I think that is one thing that troubles me more than 
anything else, how we would respond. Mechanical recovery is 
great, but it does not work well if you have very stormy 
conditions.
    Senator Peters. Dr. Reddy?
    Dr. Reddy. Senator Peters, I could not agree with you more. 
In fact, I actually am no longer going to do any more research 
on the Deepwater Horizon in the Gulf of Mexico. We are in fine 
hands with Dr. Joye and others.
    I believe the future of oil spill science is with Bakken 
oil spills and dilbits, like what happened in Kalamazoo, and I 
am currently working on the Bridger pipeline release that was 
in the Yellowstone River on January 17.
    To make an example, Bakken oil spills, which is probably 
then newest source of oil to the United States and North 
America, there is not one published paper on a Bakken oil spill 
in the United States.
    As much as we know about the Gulf of Mexico and the 
baseline knowledge, it pales in comparison to future oil 
spills, and I might even be so frank as to say that we are 
particularly lucky because NOAA and the Coast Guard and other 
responders are outstanding and did a fantastic job after the 
Deepwater Horizon, and they are battle hardened for marine 
spills.
    I do not think we have the same level or experience in land 
spills, so in many respects, we have a lot of work to do. I 
think your concerns are validated.
    Senator Peters. In the Great Lakes in particular.
    Dr. Reddy. Throughout these areas where we have pipeline 
movement of these new types of products, whether it is Bakkens 
or dilbits or other products.
    Dr. Joye. I am in total agreement. I see this as a huge 
issue in terms of response, Federal response and natural 
ecosystem response. The microbiology of oil and gas is not 
nearly enough known in marine systems. When you go to fresh 
water, there is quite a bit of data on groundwater, but not in 
surface fresh water systems. We do not really know how those 
systems are going to respond.
    Many of these lakes have been very well characterized in 
terms of the basic biology and microbiology, but in terms of 
hydrocarbon dynamics, there is next to nothing known about how 
the systems would respond to a major infusion of oil, and that 
is a tremendous data gap that needs to be filled.
    Senator Peters. Thank you for your comments. Very troubling 
and something we have to pay very close attention to. Thank 
you, Senator.
    Senator Rubio. Thank you. I am going to skip my turn in 
interest of time because I know everyone is anxious to hear 
from the Prime Minister. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you. I just want to follow up a little bit, Dr. Reddy and Dr. 
Joye, being in a state right next to North Dakota, where it has 
really been in many ways a good thing that we have gotten some 
more domestic oil, but we have also seen all the trains and 
some spills.
    What kind of scientific research exactly do you think would 
be helpful? I know you talked about the effect on fresh water, 
and how do we get that research going so we know and make good 
decisions as we move forward?
    Dr. Reddy. I do not even know where to start to be frank 
because there is such little knowledge known. For example, 
every oil is different. Oil has different personalities and 
characteristics and these dictate their behavior. Ultimately we 
have not had a full comprehensive examination.
    If we are going to keep talking about health, we have not 
done a physical on some of the products that are being moved in 
your backyard. In order for us to even start to make plans, we 
have to get a good understanding of the behavior and the 
chemistry of oil spill science and Bakken oils.
    Bakken oil has been well characterized and there are 
excellent studies by the United States Department of 
Transportation in the last year. That is about looking at 
whether or not there is an explosion. There is much less known 
about the behavior of oil.
    I would start off by saying let's investigate our patient, 
get an idea as to the behavior, and then we can make the most 
well informed decisions about how to put our assets in place in 
future research.
    Senator Klobuchar. Very good. I wanted to go back to some 
of the other spills and what has happened. There has been 
legislation that has been passed since then. Mr. Williams, do 
you think these policy changes--I am thinking of the Exxon 
Valdez spill--has these policy changes resulted in reduced 
incidents and safety improvements?
    Mr. Williams. I think absolutely. All these were great 
tragedies and the focus has to be on how we can continuously 
improve. I agree we have to be ready for a response, but we 
have to be really focused on prevention as well.
    I think all the focus that is put on prevention and 
improving prevention, like the things we are doing on safety 
and environmental management systems and making those more 
effective in prevention are extremely important as we move 
ahead. We have to learn and improve and do the prevention and 
also be ready for the response.
    Senator Klobuchar. Thank you. One of the concerns that we 
had with the Gulf spill was just the effect on migratory birds. 
We have over a million, if you can believe, water fowl, in 
Minnesota, including loons, ducks, geese. I remember we were 
really concerned about their nesting grounds and what is going 
to happen when they are headed down to the Gulf of Mexico. Our 
state bird is a loon.
    What has been the spill's long-term impact on migratory 
bird habitat? I guess I would ask one of the three of you, 
whoever wants to take it. Dr. Joye?
    Dr. Joye. I can take a shot at that. I have done quite a 
bit of work in coastal ecosystems. In the marshes of Louisiana, 
there are still some fairly devastating impacts of the 
Deepwater Horizon. There are places in Barataria Bay where if 
you looked at it, it would appear to be fresh oil, shows upon 
the marsh banks. This is a continuing impact on avian 
populations in those areas that are impacted.
    Some marshes are fine, some marshes are not. It is very 
splotchy, very heterogeneous, and it is the same along the Gulf 
Coast. Some places were hardly impacted, some places were 
heavily impacted. The coast of Louisiana took a very, very hard 
hit, and it is going to take a very long time for that oil to 
get completely out of the system.
    I remember a colleague of mine was telling me recently that 
they had set up a project, a monitoring program, about four 
years ago, and some of their control plots at the time were 
free of any visible oil. They took sediment cores, there was no 
oil there. Everything looked fine.
    Two years later, their control plots were covered in oil 
and had become completely transformed from a natural control to 
a very contaminated site. That is what the animals that inhabit 
these marshes are dealing with. The system is still changing 5 
years after the incident.
    Senator Klobuchar. Thank you very much.
    Dr. Kinner. Senator, I would like to just follow up on that 
if I could. I think Dr. Joye is right on, but I think the other 
thing as I said in my remarks and in my testimony is when an 
oil spill happens, very bad things happen. Tradeoffs have to be 
made. That is one of the primary reasons why dispersants were 
used, to minimize as best as possible the impact on the near 
shore and coastal habitats. You cannot eliminate the impact 
because it is so much oil. You are trying to minimize that 
damage.
    Senator Klobuchar. Mitigate it, that is right. Thank you 
very much.
    Senator Rubio. Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. 
Congress has still failed to put in place the safety reforms 
recommended following the Deepwater Horizon disaster, the 
independent Blue Ribbon BP Spill Commission gave Congress a 
grade of D+ on its legislative response to the spill.
    More than 5 years after the spill, we still have not 
enacted key drilling safety reforms such as significantly 
raising the liability cap for an offshore spill and increasing 
civil penalties.
    Dr. Joye, Dr. Reddy, can you speak to that and whether or 
not--good to see you both again, and welcome to the Committee. 
Your recommendation on those issues, D+ from an independent 
commission really does not give any great reassurance that we 
are going to be protected.
    Dr. Joye. I think one way to move forward in a very 
positive way that would benefit both industry and the response 
side of this problem is to form an academic response network 
that is well integrated into the National Incident Command that 
works with Federal responders.
    I think that many of the issues that were faced and the 
challenges that were faced in the response to the Deepwater 
Horizon by both the Federal side and the academic side was just 
incredibly poor communication between Federal responders and 
academic responders.
    Academics have a lot to offer. We have a lot of system 
knowledge. We have a lot of expertise, and that should be fully 
taken advantage of, and it was not.
    Senator Markey. Should Congress take action to make sure 
the spill recommendations are put in place?
    Dr. Joye. Absolutely.
    Senator Markey. OK, great. Dr. Reddy?
    Dr. Reddy. I could not agree more. Furthermore, I would 
like to make sure that credit is due to you, Senator Markey, 
because in many respects while you were a Congressman, you 
actually paved the way, and you broke down many of these walls 
that led to what I think is a much better place now between 
academia and responders.
    It was a big problem at the beginning of the spill, and 
certainly you broke down these walls, and I think we are in a 
much better place.
    Unfortunately, scientists always say three things, we wish 
we had more time, we wish we had more money, and we are not 
quite sure. In this case, I would say that in order for us to 
grease these wheels and to get academia and response working 
more closely together where I think we have great synergistic 
effects, we are certainly going to have to grease these wheels 
and provide more funding that in many cases was outlined in the 
President's Commission.
    Senator Markey. Dr. Kinner, do you want the recommendations 
of the BP Commission to be implemented?
    Dr. Kinner. Absolutely. I think they are critical. I think 
the other thing----
    Senator Markey. Do you think it is critical for Congress to 
act to put them in place?
    Dr. Kinner. Yes, sir. What I think also to follow on with 
what my colleagues have said, it is not only critical to have 
the academic community interacting with responders during a 
spill, but I think it is critical before a spill.
    I think now is when we should be having responders talking 
more with scientists and getting into the issues. Science has a 
lot to bring to the table. It could be brought to the table 
now. It is too chaotic during a spill to be discussing what is 
going on.
    It is thinking ahead of time, here is a spill, as the 
Senator from Michigan and Senator from Minnesota pointed out, 
here is a spill that could occur in the Great Lakes. What are 
the issues we would face? How could we deal with them?
    Senator Markey. The same issues that the BP Commission are 
recommending that we implement.
    Let me ask you this, natural gas, right now it is not 
counted in terms of release and when there is a calculation for 
fines, should natural gas be included in terms of potential 
damage? Dr. Joye?
    Dr. Joye. In my opinion, absolutely. It has an ecosystem 
impact. It should be included without question.
    Senator Markey. Dr. Reddy?
    Dr. Reddy. I could not agree more.
    Senator Markey. Dr. Kinner?
    Dr. Kinner. Yes.
    Senator Markey. Mr. Williams?
    Mr. Williams. I think the key thing is to really look at 
the gaps, and when you find gaps, close the gaps.
    Senator Markey. Should natural gas be included?
    Mr. Williams. I do not have a comment or position on that. 
Thank you.
    Senator Markey. OK. Thank you. Just one final question. The 
BP is saying there has been no significant long-term population 
level impact to species in the Gulf. Do you believe that is 
accurate or is that just a premature overstatement of a 
conclusion that cannot yet be determined? Dr. Joye?
    Dr. Joye. I disagree with that statement.
    Senator Markey. Great. I am going to run out of time. Dr. 
Reddy?
    Dr. Reddy. I believe it is premature and I would rather be 
in the long game of science to make sure we get everything in 
place before we can really hammer out what we know and what we 
do not know.
    Senator Markey. Thank you. Dr. Kinner?
    Dr. Kinner. I do not think we know yet.
    Senator Markey. That is great. Thank you, Mr. Chairman.
    Senator Rubio. Thank you. Senator Ayotte?
    Senator Ayotte. Thank you, Chairman. Thank you all for 
being here. Dr. Kinner, I wanted to follow up based on my 
recent visit, where I had the opportunity to visit the Coastal 
Response Research Center, and ask you as we address the 
challenges of preventing spills and also properly responding to 
spills, to protect the environment and to really use the best 
means available in technology, how at the Center have you had 
discussions with the private sector and worked with the private 
sector as we look at really their responsibility and their 
piece in this of using the best technology to prevent spills 
and also if we have one, of properly responding?
    Dr. Kinner. Yes. I think we really as the Center, and as 
you know, the Center focuses on bringing together all 
stakeholders, so we bring industry to the table.
    I am sure you remember my little circle pin. We bring 
everybody to the table. They all have an equal seat at the 
table, and industry is very important in that mix, because 
industry, as Mr. Williams mentioned, is the group that is going 
to implement changes.
    We can legislate changes. We can have requirements. They 
are the ones who have to implement them. We do bring industry 
to the table in our discussions.
    For example, I was just mentioning a bit ago about if there 
was a spill in the Great Lakes, we need to be developing 
dispersants that work in fresh water. Industry is certainly a 
partner there and they are working on that.
    I am not saying we should just take what industry does 
without any kind of evaluation. I think they are a big player 
here, and they have spent quite a bit of money on research. 
Those researchers are valuable parts of the community of 
researchers to discuss these problems.
    I think they are important to bring to the table.
    Senator Ayotte. Thank you for that. I just want to 
understand, because I see this as we all have a piece in this, 
making sure that we are using the best practices and then also 
responding properly going forward.
    I know you had a forum that was hosted and really brought 
not only public sector research, industry groups together last 
fall, and wanted to get your insight of what the discussion and 
conclusions were of that forum that we might be able to use as 
policymakers as we address these issues.
    Dr. Kinner. Yes. I will say all of my colleagues up here 
were at that forum.
    Senator Ayotte. They are happy to jump in, too.
    Dr. Kinner. We have taken away basically three messages 
from that. The first is the concept of involving academics and 
scientists in thinking about how to improve response. My 
colleagues have talked a little bit about that.
    As I mentioned, I think it is more than just interacting 
during a spill, it is getting those dialogues going and those 
evaluations happening before spills to think about the new 
types of threats we face.
    The second thing, and I think this is really important, is 
thinking about communication. We have a real problem of 
communicating with the public during a spill, prior to a spill, 
et cetera. The Deepwater, we saw that. We see that continuing 
today with the kinds of spills, with the energy renaissance.
    To that end, as you know, we are having a forum where we 
are bringing together folks from the media and folks from the 
government and folks from industry to talk about how we can 
prepare for communications that are more effective ahead of 
spills, and what kinds of communication strategies, what will 
the media bring that are issues that we have not dealt with.
    The third thing, as you know, Senator, and helped us 
sponsor last week, bringing the best people to the table to 
brief congressional staff, and I know several people were at 
our briefing last week, about the latest and important issues 
that we as a community see developing.
    Those are three things. Thank you, Senator.
    Senator Ayotte. Thank you.
    Dr. Reddy. I would take home one message from that meeting. 
Commandant Allen said do not exchange business cards during a 
crisis. That is certainly a lesson learned.
    Last week, I was lecturing in a marine pollution class at 
the United States Coast Guard Academy for cadets who will be 
graduating this year. I could have talked about science to 
them. Instead I talked to them about how they were going to 
play a critical role in the future of oil spills.
    At the end of the day, I tried to give them a lesson in 
sociology and about different cultures, and that ultimately 
they are going to interact with a wide range of different 
stakeholders. I told them when they get stationed, instead of 
exchanging e-mails, I think quite frankly that a cup of coffee 
and exchanging e-mails is going to save many miles of coast 
line.
    We have to not only start to, but we have to recognize that 
it is an important median to build relationships before a 
spill.
    Senator Ayotte. I thank you all for sharing your testimony 
today. I have to say with many of the crises we face and 
challenges, this seems to be a take away, that you cannot be 
exchanging business cards at the time when you have a crisis 
situation.
    I think that is a good lesson for us to take, not only in 
this context, and hopefully we can help facilitate your work 
there, but in every context as we respond to challenges in 
communities and also for our environment. Thank you.
    Senator Rubio. Thank you. Senator Sullivan?

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chair. I want to thank the 
panelists. This is a very important issue that you are shedding 
light on. I think we all struggle in many ways with the issue 
of certainly mitigating risk to human live, as we saw in the 
Gulf. Also, to the environment, and while maintaining the 
opportunities that we have in the energy sector, whether it is 
robust jobs, great opportunities, energy security.
    Of course, you know in my state you see a lot of that. We 
struggle with a lot of that. They are very, very important 
issues. We are very proud of our record in Alaska, some of the 
highest standards on the environment and protection literally 
in the world.
    I have had the opportunity to be in other parts of not only 
the country but the world, Russia, Azerbaijan. The standards do 
not even come close to what we have in Alaska, the highest.
    At the same time we have significant opportunities. You 
mentioned Cook Inlet. We have a jobs boom in Cook Inlet, a 
basin that was considered a dead basin a couple of years ago is 
now providing enormous opportunities, energy, jobs, and exports 
for this country.
    I think we all know this is a critical issue that we need 
to balance. I appreciate all the work that you all have done on 
this issue.
    Let me just start with a quick question. I think a lot of 
times we get the sense, particularly in the Federal Government, 
that one size can fit all, on these issues. As you know, there 
are many, many different types of basins, many different types 
of resources.
    I will give you one example. We were talking about the 
Deepwater Horizon. There was, of course, a Gulf moratorium that 
Secretary Salazar put on the Gulf during that time. He also 
slapped a moratorium on Alaska that summer, which I thought as 
Attorney General of the state was not legal. Two very, very 
different scenarios, 100 feet of water in the OCS off the coast 
of Alaska, 6,000 feet in the Gulf. They put a moratorium on us 
anyway.
    Do you agree that we should be looking at these issues not 
as one size fits all but very, very particular given the 
different basins, different challenges that we have in 
different regions of the country? Mr. Williams?
    Mr. Williams. I think there has to be a framework, 
obviously, but I think it is absolutely key, and that is one of 
the principles we work on in the Center for Offshore Safety, 
that you have to plan, identify hazards, build barriers, manage 
your program all to address the circumstances of where you are.
    The real key to preventing incidents is this planning and 
continuous monitoring around the circumstances and conditions 
in which you are going to have to operate.
    Senator Sullivan. Thank you. Dr. Kinner, do you have a 
thought on that?
    Dr. Kinner. Yes. I think that is correct, but I think we 
can take some resources and knowledge that we have from other 
areas and help it inform how we do work.
    I will give you an example. During the spill in the Gulf, 
there was a common operating picture called ``ERMA,'' the 
Environment Response Management Application, that NOAA used, 
and there was even a public site, that was actually a resource 
for all sorts of environmental data coming in and being a home 
for that data where responders and the public could look at it 
and scientists.
    That application has been applied in your state, but it 
takes a different kind of application because, for instance, in 
the Arctic, there may not be connectivity during a spill with 
the Internet, which in the Gulf is much, much easier.
    A stand-alone version of ERMA had to be developed. These 
kinds of things sometimes do have some overlap, but they need 
to be tailored to the unique situation, as you pointed out, 
sir.
    Senator Sullivan. Great. Thank you. Let me ask another 
question, you raised the issue of the Arctic. I think one take 
away that hopefully is positive, hopefully you would agree, 
that the level of cooperation between government and industry 
has changed in a positive direction since the Deepwater Horizon 
spill.
    I do not know if any of you have seen the National 
Petroleum Council's recent study on the Arctic. To me, this is 
to Secretary Moniz, this is a good example of industry, 
science, academics, all collaborating on an important issue, 
Arctic oil and gas development and potential.
    Have you read this report and do you agree with the 
recommendations? Mr. Chairman, I would like to submit for the 
record the summary. This is a very large study that was 
recently released to Secretary Moniz.
    Senator Rubio. Without objection.
    [The information referred to follows:]

      Arctic Potential: Realizing the Promise of U.S. Arctic Oil 
                           and Gas Resources

    Committee on Arctic Research
    Rex W. Tillerson, Chair
    National Petroleum Council 2015

    The executive summary of the report can be found at http://
npcarcticpotential
report.org/pdf/AR-Executive_Summary-Final.pdf

    Senator Sullivan. Mr. Williams?
    Mr. Williams. No, I actually have not read that report.
    Senator Sullivan. It would be interesting to see what you 
believe after reading this study, maybe we can follow up with 
questions for the record, if you agree with some of these 
recommendations in this study.
    Mr. Williams. I will. Thank you.
    Senator Sullivan. Dr. Kinner?
    Dr. Kinner. Yes, I have looked at the report, sir, and I 
think one of the key things that is important to point out here 
is not only the Federal Government and the state government and 
the industry working together, but also to involve especially 
in your state the Alaskan Native knowledge and the Alaskan 
Native culture that is so important to how we would respond and 
the impact a spill would have in the Arctic. I think that is a 
real key.
    Senator Sullivan. I agree with that.
    Dr. Reddy. Senator, I saw a presentation about it but I 
have not read the report. I would love to go back to your other 
question about lessons learned. It is like buying a house, 
location, location, location. Alaska is not as conducive to 
responding to oil spills as the Deepwater Horizon.
    In fact, I have an ongoing research project studying the 
Exxon Valdez, and I can tell you I can find fresher less 
weathered oil from the Exxon Valdez than I can in the 
Deepwater.
    Senator Sullivan. But 100 feet of water is not 6,000 feet 
of water.
    Dr. Reddy. No.
    Senator Sullivan. There is no reason for an Arctic 
moratorium.
    Dr. Reddy. No, my point is I am very concerned that we use 
one size fits all.
    Senator Sullivan. Me, too.
    Dr. Reddy. And that we have to recognize in how we put our 
assets in place with the limited infrastructure that you have 
in place in the Arctic so we can use and tailor what we know 
from these very small studies that we have done in the last 25 
years, and not use what we used in Deepwater Horizon.
    Senator Sullivan. I think this study has a lot of the 
issues that we are looking at in my state certainly. Thank you 
very much, Mr. Chairman.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you. I thought I saw Senator 
Blumenthal. Stand by.
    I think what I will do for the record while I wait for 
Senator Blumenthal, I had a statement I was going to enter into 
the record, and I will just enter it verbally.
    I wanted to thank all of you for being here to discuss one 
of the most devastating events that happened to the Gulf of 
Mexico and the states that border it.
    I do think first and foremost today we should pay tribute 
to the 11 souls who lost their lives on that tragic day, their 
families and friends are in our thoughts, especially today as 
we reflect on the past 5 years and on the need to assure other 
Americans do not suffer the same fate.
    This oil spill in April 2010 had an impact on small 
businesses that rely on fishing and tourism dollars, and that 
impact has been tremendous. The event happened during the busy 
time for my state's beaches and local economies along the Gulf 
coast and felt the blunt of it. Hotel reservations were 
canceled, restaurants sat empty, and those vital tourist dollar 
plummeted.
    Coupled with what I believe were the Administration's 
actions to close 88,500 square miles of the Gulf to fishing, 
131,000 jobs that were supported by $12.8 billion per year, 
were negatively impacted.
    The environmental impacts were also widespread. An 
estimated 4.9 million barrels of oil flowed through that 
habitat that is home to more than 15,000 species. Wildlife 
washed ashore covered in oil, marshes which serve as a habitat 
for wildlife suffocated and died, and deep sea coral colonies 
showed signs of tissue damage.
    The term ``blowout preventer'' was on everyone's tongue 
while live underwater shots of oil spewing into the waters of 
the Gulf was happening. For 87 days, the Nation watched and 
waited for a fix.
    Today, we have been hearing from you about how technology 
has evolved to address the shortcomings of that well. 
Innovations and equipment design and important changes to 
response measures will hopefully prevent another catastrophic 
event, and technological advances have also been made to 
address any remediation necessary as quickly and effectively as 
possible.
    I am encouraged by this progress made through ongoing 
recovery efforts, and I am even prouder of the resiliency of 
the communities, the businesses, and the people that were 
impacted.
    I am pleased, as Senator Nelson highlighted earlier, that 
the RESTORE Act money is finally being made available to 
continue the recovery efforts on the ground.
    I want to again thank all of you for your insight here 
today. I look forward to a continued dialogue on these issues. 
Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman. Just very briefly 
before we close the hearing, as you know, there was a joint 
investigation by the Department of Homeland Security and 
Interior in April 2010 which revealed, and I quote, ``Numerous 
systems deficiencies and omissions by the Deepwater Horizon 
crew as well as poor maintenance of equipment, ignoring alarms, 
and lack of training personnel.''
    In 2012, two years after these recommendations were issued, 
Shell had to significantly roll back drilling plans in the 
Alaskan Arctic because of several accidents and missteps that 
revealed the company was ill prepared to be drilling in the 
harsh conditions of the Arctic, and had not been taking safety 
precautions serious enough.
    Let me just ask Mr. Williams, has the oil and gas industry 
in your view heeded the lessons of the Gulf disaster and the 
subsequent recommendations from this investigation and others 
in its activities in other parts of the world?
    Mr. Williams. Yes, sir. I think if you look at the Center 
for Offshore Safety, it was set up as a place where we could 
collaborate and learn together, and learn these lessons on how 
we could improve safety management.
    The industry in general, I think one of the key changes 
that I mentioned is how we came together and made new industry 
standards and made new systems for subsea containment, and have 
worked together to improve this.
    The key thing is looking at safety management systems, not 
only are we learning and looking at how we can improve safety 
management, but we are also measuring it, so we get 
measurements that feed back into this continuous improvement of 
how to make it better.
    Also, if you do the SEMS' audit, you have to have a 
mandatory action plan to address any findings that are found in 
the audit. There is also this system of measurement and 
oversight that leads to improvement also.
    Senator Blumenthal. Is there adequate collaboration among 
the companies?
    Mr. Williams. Yes, sir. That is why really the Center for 
Offshore Safety was created, so we have this one place that is 
entirely focused on safety, where we can come together, share 
learning, share data, and share good practices and develop good 
practices together to do that.
    Senator Blumenthal. But is that adequate?
    Mr. Williams. Sir?
    Senator Blumenthal. Can more be done?
    Mr. Williams. Always more can be done. That is what our 
focus is, our focus is on doing the audits, doing the learning 
from incidents, and seeing if there are gaps and opportunities. 
If they are, what are the good practices that can close them. 
We are going to continuously look at that and continuously 
learn and address that.
    Senator Blumenthal. Is there anything that Congress should 
do to assure even greater collaboration or greater preemptive 
and proactive action?
    Mr. Williams. What I would say again is I think the best 
thing to do is now that we have data and we are collecting 
data, lots of people are collecting data, we have the 
government reports and the industry reports, look at the 
activities now, look at what needs to be done. If there are 
gaps or opportunities for improvement, let's close those gaps 
and make those improvements in the best manner that we can.
    Senator Blumenthal. Have you identified gaps that exist 
now?
    Mr. Williams. We have improvement items that we have 
already seen from the first set of audits and from our first 
annual report. It is around things like making sure that we 
have more effective processes, making sure people follow those 
processes, looking at station keeping, so the good news is we 
found these things we know we need to work on and we set up 
task groups and we are working on it, and we are going to 
develop the good practices to help the industry get better in 
those areas that we have seen.
    Senator Blumenthal. Did you have----
    Dr. Joye. I just want to make a comment. John Amos, who 
runs the SkyTruth program, released a report last week that 
pointed out that since 2010, there have been 9,800 hazardous 
materials spills in the Gulf of Mexico. I think that is a 
number that we all need to keep in mind.
    The other thing I wanted to point out is that in 2004, the 
energy platform sank after Hurricane Ivan. That platform was 
producing 26 wells, nine of the wells have been plugged, the 
other 16 are still leaking oil into the Gulf of Mexico. That 
has been ongoing now for almost 11 years and it has not been 
dealt with.
    Situations like that should not be allowed to proceed, and 
I think in cases like that, legislation is needed to force the 
responsible party to deal with and seal those wells so there is 
not a perpetual discharge of oil and gas into nearshore waters.
    Senator Blumenthal. Do you have a response, Mr. Williams?
    Mr. Williams. Absolutely. Our goal is zero spills and zero 
accidents, and we work hard to achieve that goal every day, and 
want to learn and put all our efforts into that goal.
    Certainly, any of these is a tragedy, and the key is to do 
all we can to be prepared and prevent these, and then if in the 
regrettable circumstance that we have one, to have the proper 
response to mediate it as best as possible.
    Senator Blumenthal. I guess what I am driving at is what 
specifically can and should be done to address the kind of 
problem that we just heard that seems to be ongoing. Dr. Joye 
has raised it very specifically. I think there is a need to 
consider specific action.
    Mr. Williams. Like I said, we have worked on standards. We 
have worked on response systems. What I work on, and what I 
think the key focus has to be is you have to have planning, you 
have to have execution, you have to have the skills and 
knowledge in the staff, you have to have the business 
processes, especially how you manage change going forward, and 
those all have to be effectively and continuously done and 
monitored, that it is all being done well.
    That is where the focus really should be, in safety and 
environmental management systems, making those effective and 
continuously working.
    Senator Blumenthal. My time has expired.
    Dr. Kinner. Senator, might I just make a quick comment as a 
follow-up? I think this kind of dialogue is exactly what I was 
talking about in my testimony. What we really need to do is get 
people like John Amos together with people from industry and 
really talk about the details and talk turkey about these 
situations.
    Lots of times, just this kind of back and forth in the 
media or in one conference or another is not really moving the 
problem forward, and that is what I am talking about, really to 
focus on the details of what is this data showing, what might 
the situations be, et cetera. Those are all the important 
questions, but they are not well discussed in a media forum.
    Senator Blumenthal. Good point. Thank you, Mr. Chairman.
    Senator Rubio. I want to thank all four of you for being 
here today, for your testimony, for your time.
    Before we adjourn, on behalf of the Chairman, I want to 
enter two letters into the record. One is from the Gulf of 
Mexico University Research Collaborative dated April 28, 2015, 
and the other is from the Louisiana State University Office of 
Research and Economic Development dated April 28, 2015.
    I enter the second letter despite the fact that LSU will be 
routinely humiliated by the University of Florida on the 
football field.
    [Laughter.]
    Senator Rubio. We will enter them into the record without 
objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    

    Senator Rubio. Again, I want to thank all of you for being 
a part of this. The hearing record is going to remain open for 
2 weeks, so we are going to ask Senators to submit questions 
for the record. During that period of time, we would ask that 
if you receive these questions that you would submit the 
written answers to the Committee as soon as possible.
    Again, thank you for being a part of this today, and with 
that, the hearing is now adjourned.
    [Whereupon, at 11:08 a.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Question Submitted by Hon. Marco Rubio to 
                     Charles (Charlie) Williams II
    Question. Mr. Williams, I recognize the importance of oil and 
natural gas development in the U.S. and the positive impact that it has 
on our economy. I also recognize that we must be vigilant and continue 
to learn and improve. I understand that the Center serves the U.S. 
offshore oil & gas industry with the purpose of adopting standards to 
ensure continuous improvement in safety and offshore operational 
integrity and I truly respect that. Can you describe what the Center is 
doing to coordinate and share what industry has learned and what the 
process is to do that?
    Answer. Safety is a core value for our industry, and in recent 
years, the oil and natural gas sector has made substantial improvements 
to the safety of offshore operations and drilling. The industry has 
revised existing standards or created new ones to guide the design, 
construction and integrity of deepwater wells, blowout preventers, 
subsea capping stacks and many other aspects of offshore exploration 
and production and established the Center for Offshore Safety (COS) to 
ensure continuous improvement in safety and environmental protection.
    The Center for Offshore Safety (COS), launched in 2011 to promote 
the highest level of safety for offshore drilling, completions, & 
operations by effective leadership, communication, teamwork, 
utilization of disciplined safety management systems, independent 
third-party auditing & certification, and monitoring continuing 
improvements, released a first-of-its-kind annual report in 2015 to 
measure safety performance, compiled from industry data and independent 
third-party audits.
    Additionally, COS develops guidelines and best practices to help 
companies embed a strong culture of safety into all their operations. 
It is important to understand that safety culture is not a checklist. 
Safety culture is a daily decision by companies and their employees to 
choose safety first in everything they do.
    COS has created tools to assist companies in building or enhancing 
safety and environmental management systems, and three COS guidelines 
have been adopted by the Bureau of Safety and Environmental Enforcement 
(BSEE) into its own regulations. In 2015, BSEE also formally recognized 
COS as the first and only organization with the authorization to 
accredit Audit Service Providers who conduct the BSEE-required Safety 
and Environmental Management System audits, which are required for all 
offshore oil and gas operators.
    An important component of SEMS is the ability to assess and measure 
its effectiveness and continually improve as well as sharing SEMS 
knowledge. COS will continue to gather and use the information in its 
annual reports to develop data-driven improvements and good practices 
as part of our mission to promote the highest levels of offshore 
safety.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                      Christopher M. Reddy, Ph.D.
    Question. Dr. Reddy, it is great to hear that the tide has turned, 
so to speak, for the government to be inclusive to the academic 
community and I hope that cooperation continues and you and your peers 
are able to fill gaps the various government agencies have. As far as 
local response, I have heard in the past from Floridians that a 
nationally led team is not the most efficient way to prepare for a 
spill to reach the shores. Can you tell me about your experience on the 
ground, working with local governments and officials?
    Answer. In my near 20 years of responding and studying the fate and 
impacts of marine-based oil spills, I have had very few interactions 
with local and state officials. I have never participated in any 
planning exercises, worked closely during a spill event, or had a 
direct line of communication with local officials. When I have had such 
interactions (summarized below), it is during general public discussion 
of interested parties, unofficial briefings, acts of courtesy for 
accessing an impacted area, or updates months/years later during the 
damage-assessment phase.
    However, it has been my experience and understanding that local and 
state officials do interact with Federal responders by attending 
planning meetings, participating in drills, and coordinating/sharing 
assets during spill events. For example, two weeks ago, I was invited 
to brief the Southeastern New England Area Region command response 
group, which included Federal (Coast Guard, NOAA, EPA, Homeland, 
Interior) and state environmental officials. Before my presentation, I 
observed collegial and earnest exchanges as each group provided 
updates. This group appeared to share a unified goal of reducing 
damages during a spill (or preventing a bad one from getting worse). 
After the meeting, I was invited to participate in all future meetings. 
In addition, state representatives for RI and MA invited me to give 
presentations within their teams. This is certainly evidence that 
``tides are changing'' and suggests that during future spills there 
will be a greater chance for academics to be more involved with both 
Federal and local officials.
    Attending meetings and an occasional brief is certainly 
encouraging, but funding would create richer and more fruitful 
relationships amongst state and local officials and academia. One of 
the key lessons learned from the Deepwater Horizon disaster stated by 
former NOAA administrator, Dr. Jane Lubchenco, was that NOAA had the 
greatest benefit from tapping academic talent from past and pre-
existing relationships fostered by prior extramural funding and 
coordination. While states continue to struggle with difficult budget 
environments, small investments in cultivating state and local 
relationships with the public and private academic spill response 
communities has the potential to provide significant benefits and 
reduced impacts when such events occur.
    I will conclude by stating the obvious, it should not be a matter 
of local versus national during environmental incident response, which 
by their nature know no borders. Rather it must be a coordination of 
local, who understand their water ways and issues the best, national, 
who may have years of experience in spills across the country, and 
academia who can provide fact based in situ information for those teams 
to coordinate better responses. Therefore, supporting academia in 
participating with these groups before, during and after an incident, 
is crucial.
                                 ______
                                 
    Christopher Reddy's involvement with state and local officials 
prior to, during or after oil spills:

Presentations that included local and state officials in the audience:

  <bullet> Reddy, C.M. An update on the Bouchard 120 oil spill. New 
        Bedford Whaling Museum, New Bedford, MA, May 3, 2003. 
        Presentation. Invited.

  <bullet> Reddy, C.M., Chemistry and weathering of the oil. Cosco 
        Busan Oil Spill Technical Workshop January 25, 2008. Oakland, 
        CA (Presentation). Invited.

  <bullet> Reddy, C.M. Hunting for subsurface plumes in the Gulf of 
        Mexico after the Deepwater Horizon Disaster. Are we in 
        DEEPWATER? Applying Lessons Learned from our SONS Experiences, 
        March 22, 2011, Portsmouth, NH (Presentation). Invited.

  <bullet> Reddy, C.M. An argument for better aligned relations with 
        academia and the oil-spill response community. Southeastern New 
        England Area Region command response meeting. Massachusetts 
        Maritime Academy, Massachusetts Maritime Academy, Bourne, MA, 
        October 21, 2015. (Presentation). Invited.

Briefings, workshops, and testimony:

  <bullet> Testified on oil spills for Joint Committee on Natural 
        Resources and Agriculture, State of Massachusetts, Boston, MA. 
        May 25, 2004.

  <bullet> Advised Massachusetts Dept. of Environmental Protection on 
        spills of alternatives fuels and lubricants, Boston, MA. Mar. 
        13, 2007.

  <bullet> Advised city, state, and Federal officials following the M/V 
        Cosco Busan oil spill in San Francisco Bay (Nov. 2007).

  <bullet> Participant in Research & Development Priorities: Oil Spill 
        Workshop, The Coastal Response Research Center, U. of New 
        Hampshire (Mar. 2009); included state representatives

  <bullet> Briefed Lt. Governor Elizabeth Roberts (Rhode Island) and 
        Emergency Management Council on oil spills, Warwick, RI, August 
        10, 2010.

Access to field samples with help from state officials:

    In 2012 upon request from me via e-mail, Mr. Garrett Graves (LA/
DNR) arranged for a boat to access an oiled salt marsh (from the 
Deepwater Horizon).

Assisting state officials during a natural resource damage assessment:

    I worked with the Rhode Island Department of Environmental 
Management (Summer/Fall 1997) on the toxicity of oil released during 
the North Cape spill (coast of Rhode Island; January 1996). I had found 
that the oil was more toxic than thought and communicated it in several 
talks to diverse audiences. Only the Rhode Island officials, months 
later, acted upon it, leading towards an additional 1.5 million dollars 
added to the damage settlement for Rhode Island. I received numerous 
honors for this work including one from the Honorable Lincoln Almond 
(Governor of Rhode Island).

                                  [all]
</pre></body></html>
